<html>
<title> - STATE PLANNING FOR OFFSHORE ENERGY DEVELOPMENT: STANDARDS FOR PREPAREDNESS (PART 3 OF 3)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                          STATE PLANNING FOR
                            OFFSHORE ENERGY
                        DEVELOPMENT: STANDARDS
                           FOR PREPAREDNESS
                             (PART 3 OF 3)

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 24, 2010

                               __________

                           Serial No. 111-60

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      

                  U.S. GOVERNMENT PRINTING OFFICE
57-093                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Gregorio Sablan, Northern Marianas   John Fleming, Louisiana
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Bill Cassidy, Louisiana
Diana DeGette, Colorado              Doc Hastings, Washington, ex 
Ron Kind, Wisconsin                      officio
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 24, 2010..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Cassidy, Hon. Bill, a Representative in Congress from the 
      State of Louisiana.........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Barton, Manly, Supervisor, District 1, Jackson County Board 
      of Supervisors, Pascagoula, Mississippi....................    20
        Prepared statement of....................................    22
    Fletcher, Kristen M., Executive Director, Coastal States 
      Organization, Washington, D.C..............................    10
        Prepared statement of....................................    12
        Response to questions submitted for the record...........    16
    Menashes, Matthew E., Executive Director, National Estuarine 
      Research Reserve Association, Washington, D.C..............    23
        Prepared statement of....................................    25
        Response to questions submitted for the record...........    33
    Takahashi-Kelso, Dennis, Ph.D., Executive Vice President, The 
      Ocean Conservancy, Santa Cruz, California..................    35
        Prepared statement of....................................    36
    Walker, William W., Ph.D., Executive Director, Mississippi 
      Department of Marine Resources,............................     6
        Prepared statement of....................................     7

Additional materials supplied:
    National Estuarine Research Reserve Association, Supplemental 
      statement submitted for the record.........................    62


 OVERSIGHT HEARING ON STATE PLANNING FOR OFFSHORE ENERGY DEVELOPMENT: 
                       STANDARDS FOR PREPAREDNESS

                              ----------                              


                        Thursday, June 24, 2010

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:11 a.m. in 
Room 1324, Longworth House Office Building, The Honorable 
Madeleine Z. Bordallo [Chairwoman of the Subcommittee] 
presiding.
    Present: Representatives Bordallo, Christensen, Kind, 
Capps, Wittman, Fleming and Cassidy.
    Also Present: Representatives Herseth Sandlin and Cao.
    Ms. Bordallo. Good morning, everyone. The oversight hearing 
by the Subcommittee of Insular Affairs, Oceans and Wildlife 
will now come to order.

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Today the Subcommittee holds its third 
hearing on the Deepwater Horizon oil spill. While the tragedy 
continues for both Gulf communities and the environment, we 
will look ahead and examine whether current planning efforts 
and requirements under the law are sufficient to ensure a 
coordinated and effective response to any future spills.
    Yesterday, we were again reminded of the difficulties of 
operating a mile below the sea surface when a remotely operated 
vehicle accident suspended operations, and the cap was 
temporarily removed, allowing much more oil to gush into the 
Gulf--as it has been for the last nine weeks. Nearly 2,000 
birds, sea turtles and mammals are known to have died as a 
result of the spill, while hundreds or possibly thousands more 
may never be accounted for, and by now we are all familiar with 
the tragic degradation of the wetlands and beaches in 
Louisiana, Mississippi, Alabama and also Florida.
    While the many hearings and investigations to date have 
shown that the oversight and regulation of the offshore oil 
industry is in clear need of reform, we must also look beyond 
regulatory mechanisms and recognize that informed and thorough 
preparedness is necessary for effective and coordinated 
disaster response and to protect marine environments and 
coastal communities from the effects of a spill.
    Various response plans were in place before the Deepwater 
Horizon incident, including offshore facility local and state 
plans. In addition to this localized planning area, regional 
and national contingency plans were mandated by the Oil 
Pollution Act. Other planning statutes include the Coastal Zone 
Management Act which requires states to include in their 
Federally approved coastal management plans a process for 
anticipating impacts resulting from offshore energy facilities, 
and the Stafford Act which authorized the President to issue 
major disaster declarations to enable Federal agencies to 
provide assistance to state and local governments overwhelmed 
by catastrophes.
    Current response and recovery activities have adhered to 
existing plans, but as the National Institute Commander Admiral 
Thad Allen as noted, ``The unprecedented complexity and 
magnitude of this disaster shows us those plans may not have 
gone far enough.''
    This spill is a wake up call. Its damages stretching from 
coral reefs to coastal communities, and we must do our best to 
prepare for a new worst-case scenario.
    I want to thank all the witnesses for being here today, and 
I look forward to hearing how to improve our preparedness for 
oil spills amongst all levels of government.
    Before I recognize the Acting Ranking Member of the 
Subcommittee, I would like to ask for unanimous consent that 
our colleague from Louisiana, Congressman Joseph Cao, be 
allowed to join the Subcommittee on the dais for this hearing. 
Hearing no objection, so ordered.
    And now at this time I would like to recognize Mr. Cassidy, 
the Acting Ranking Member of the Subcommittee.
    [The prepared statement of Chairwoman Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Today the Subcommittee holds its third hearing on the Deepwater 
Horizon oil spill. While the tragedy continues for both Gulf 
communities and the environment, we will look ahead and examine whether 
current planning efforts and requirements under the law are sufficient 
to ensure a coordinated and effective response to future spills.
    Yesterday we were again reminded of the difficulties of operating a 
mile below the sea surface when a remotely operated vehicle accident 
suspended operations and the cap was temporarily removed allowing much 
more oil to gush into the Gulf as it has been for the last nine weeks. 
Nearly 2,000 birds, sea turtles, and mammals are known to have died as 
a result of the spill while hundreds or possibly thousands more may 
never be accounted for, and by now we are all familiar with the tragic 
degradation of wetlands and beaches in Louisiana, Mississippi, Alabama, 
and Florida.
    While the many hearings and investigations to date have shown that 
the oversight and regulation of the offshore oil industry is in clear 
need of reform, we must also look beyond regulatory mechanisms and 
recognize that informed and thorough preparedness is necessary for 
effective and coordinated disaster response, and to protect marine 
environments and coastal communities from the effects of a spill.
    Various response plans were in place before the Deepwater Horizon 
incident, including offshore facility, local, and State plans. In 
addition to this localized planning, area, regional, and national 
Contingency Plans were mandated by the Oil Pollution Act. Other 
planning statutes include the Coastal Zone Management Act, which 
requires States to include in their Federally-approved Coastal 
Management Plans, a process for anticipating impacts resulting from 
offshore energy facilities, and the Stafford Act, which authorizes the 
President to issue major disaster declarations to enable Federal 
agencies to provide assistance to State and local governments 
overwhelmed by catastrophes.
    Current response and recovery activities have adhered to existing 
plans, but as the National Incident Commander, Admiral Thad Allen, has 
noted, the unprecedented complexity and magnitude of this disaster 
shows us those plans may not have gone far enough. This spill is a 
wake-up call, its damages stretching from coral reefs to coastal 
communities, and we must do our best to prepare for a new worst case 
scenario.
    I thank all the witnesses for being here today and look forward to 
hearing how to improve our preparedness for oil spills amongst all 
levels of government.
                                 ______
                                 

    STATEMENT OF THE HON. BILL CASSIDY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Thank you, Madam Chair. I compliment you for 
scheduling these series of oversight hearings on the Deepwater 
Horizon incident. During the last two weeks, we have heard from 
nearly 30 witnesses representing Federal, state, local 
officials, university professors, conservation and 
environmental groups, fishermen, tourism experts, and seafood 
processors and, despite all we have learned, the fact remains 
that the leak is not yet plugged, our coast not yet protected, 
and claims for damages not being adequately processed and 
funded by BP, and there are still many unanswered questions.
    We need to get to the bottom of what happened to prevent it 
from ever happening again. We need to know the facts. A 
detailed account informed by understanding so that Congress and 
the Administration can put in place new safety and enforcement 
measures to make the United States the safest place in the 
world to drill for the energy resources that power our economy.
    Now, as much as I applaud your effort, Madam Chair, I am 
concerned regarding President Obama's. This fact finding was 
supposed to be the purpose of a national oil spill commission. 
Instead the President has created a commission that doesn't 
appear to be up to the challenge. Instead of appointing 
independent experts with knowledge and expertise of deepwater 
drilling, he has packed the commission with people who lack 
expertise in the issues we are confronting.
    For example, there are no petroleum engineers on this 
commission, nor is there anyone with experience in deepwater 
drilling.
    My concern is that they do not have the members capable of 
understanding what is needed to be understood. If you are going 
to have a commission to figure out what went wrong in petroleum 
engineering circumstances in deepwater drilling, you need 
petroleum engineers and deepwater drillers. If we don't learn 
from BP's mistakes and our government's failures, we will not 
be able to implement reforms needed to prevent another spill, 
and our energy future will be far less secure.
    I will point out this is not the first time the President 
has rejected science and professional expertise in responding. 
He recently imposed a moratorium on deepwater drilling that was 
denounced by his own hand-picked advisors at the National 
Academy of Engineering. These experts stated that the 
moratorium, and I quote, ``will not measurably reduce risk 
further and it will have a lasting impact on our nation's 
economy which may be greater than that of the oil spill.''
    Now, as a physician and a medical school teacher, I tell my 
students first do no harm, but the President's six-month 
moratorium on deepwater exploration and production is doing 
great harm to our regional economy. The jobs and the 
livelihoods of thousands of workers and their families are at 
risk every day this moratorium goes on. We must ensure the 
safety of our offshore energy production, but there is no 
scientific basis for this moratorium according to these 
engineers.
    This Administration was touted as one in which science 
would trump politics. Just over a year ago President Obama 
said, ``Under my Administration, the days of science taking a 
back seat to ideology are over. To undermine scientific 
integrity is to undermine our democracy. I want to be sure that 
facts are driving scientific decisions and not the other way 
around.''
    In the case of the deepwater moratorium and the 
appointments to the oil spill commission, the President has 
apparently chosen politics over science.
    Madam Chair, at stake is our entire way of life along the 
Gulf Coast--our jobs, energy production, fisheries, wetlands 
and our dynamic ecosystem, and beyond the Gulf at stake is the 
ability of our nation to produce affordable energy to heat our 
home, fuel or vehicles, and power the businesses that provide 
jobs. In short, this is about America's resources, the 
environment and jobs.
    More than 30 percent of this nation's oil comes from the 
Gulf of Mexico, and 80 percent of that from deepwater wells. As 
a result of this moratorium, American job losses will range in 
tens or even hundreds of thousands. Lost wages could be over 
$330 million per month, and the amount of oil and gas 
production from deepwater drilling in the Gulf is reduced by 
193,000 barrels in the year 2011, and this is not just a six-
month moratorium.
    If those mobile rigs leave the Gulf, they may be gone for 
at least three to five years as they sign contracts to produce 
in other sites around the world. By the way, these are 
deepwater sites.
    Because of this economic cost and the fact that the 
moratorium will not increase safety, I introduced H.R. 5519, 
the Gulf Coast Jobs Preservation Act. The twin goals of this 
legislation are to terminate the moratorium and direct the 
Secretary of the Interior to identify additional measures to 
ensure the safety of deepwater drilling.
    Madam Chair, our response to this disaster needs to be 
guided by facts, not emotion, not political opportunism, but 
truth. Let us stay focused on the evidence and figure out what 
measures will ensure that the people, the economies, and the 
ecosystems of the Gulf can thrive.
    Madam Chair, thank you again for holding these hearings, 
and I yield back.
    [The prepared statement of Mr. Cassidy follows:]

 Statement of The Honorable Bill Cassidy, a Representative in Congress 
                      from the State of Louisiana

    Madam Chairwoman, I want to compliment you for scheduling this 
series of oversight hearings on the Deepwater Horizon incident. During 
the past two weeks, we will have heard from nearly 30 witnesses 
representing Federal, state, and local officials, university 
professors, conservation and environmental groups, fishermen, tourism 
experts, and seafood processors.
    Despite all we have learned, the fact remains that the leak is not 
yet plugged, our coasts are not yet protected, and claims for damages 
are not being adequately processed and funded by BP. And there are 
still many unanswered questions.
    We must get to the bottom of what happened and prevent it from ever 
happening again. We need to know the facts--a detailed account informed 
by understanding--so Congress and the Administration can put in place 
new safety and enforcement measures to make the United States the 
safest place in the world to drill for the energy resources that power 
our economy.
    This fact-finding was supposed to be the purpose of a National Oil 
Spill Commission. Instead, the President created a Commission that is 
not up to the challenge. Instead of appointing independent experts with 
knowledge and expertise of deepwater drilling, he packed the Commission 
with people who lack expertise in the issues we're confronting.
    There are no petroleum engineers on this Commission, nor is there 
anyone with experience in deepwater drilling. My concern is that they 
do not have the members capable of understanding what is needed to be 
understood. If you're going to have a commission figure out what went 
wrong in a petroleum engineering circumstance in deepwater drilling, 
you need petroleum engineers and deepwater drillers.
    If we don't learn from BP's mistakes and our government's failures, 
we won't be able to implement reforms needed to prevent another spill, 
and our energy future will be far less secure.
    This is not the first time that the President has rejected science 
and professional expertise in responding to the spill. He recently 
imposed a moratorium on deepwater drilling that was denounced by his 
own hand-picked advisers at the National Academy of Engineering. These 
experts stated that the moratorium, and I quote,--``will not measurably 
reduce risk further and it will have a lasting impact on the nation's 
economy which may be greater than that of the oil spill''--unquote.
    As a physician and a medical school teacher, I tell my students 
``First, do no harm.'' The President's 6-month moratorium on deepwater 
exploration and production is doing great harm to our regional economy. 
The jobs and livelihoods of thousands of workers and their families are 
at risk every day this moratorium goes on. We must ensure the safety of 
our offshore energy production, but there is no scientific basis for 
this moratorium.
    This Administration was touted as one in which science would trump 
politics. Just over a year ago, President Obama said quote--``Under my 
Administration, the days of science taking a back seat to ideology are 
over...To undermine scientific integrity is to undermine our 
democracy...I want to be sure that facts are driving scientific 
decisions, and not the other way around.''--unquote. In the case of the 
deepwater moratorium and the appointments to the Oil Spill Commission, 
the President has chosen politics over science.
    Madam Chairwoman, at stake is our entire way of life along the Gulf 
Coast--our jobs, our energy production, our fisheries, our wetlands, 
and our dynamic Gulf ecosystem. And beyond the Gulf, at stake is the 
ability of our nation to produce affordable energy to heat our homes, 
fuel our vehicles, and power the businesses that provide jobs. In 
short, this is about America's resources, the environment, and jobs.
    More than 30 percent of this nation's oil comes from the Gulf of 
Mexico, and 80 percent of that comes from deepwater wells. As a result 
of this moratorium, American job losses will range in tens or even 
hundreds of thousands, lost wages could be over $330 million dollars 
per month, and the amount of oil and gas production from deepwater 
drilling in the Gulf will be reduced by 193,000 barrels in 2011.
    And this is not just a six month moratorium. If these mobile rigs 
leave the Gulf, they will be gone for at least three to five years to 
other sites around the world.
    Because of these economic costs and the fact that the moratorium 
will not increase safety, I introduced H. R. 5519, the Gulf Coast Jobs 
Preservation Act. The twin goals of this legislation are to terminate 
the moratorium and direct the Secretary of the Interior to identify 
additional measures to ensure the safety of deepwater drilling.
    Madam Chair, our response to this disaster needs to be guided by 
facts--not emotion, not political opportunism, but truth. Let's stay 
focused on the evidence and figure out what measures will ensure that 
the people, the economies, and the ecosystems of the Gulf can thrive.
    Madam Chair, thank you for again holding these hearings.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman for his opening 
statement, the acting Ranking Member of this Subcommittee, and 
I would now like to recognize our panel of witnesses that are 
here to testify.
    First, let me introduce Dr. William W. Walker, Chair, Gulf 
of Mexico Alliance, and Executive Director, Mississippi 
Department of Marine Resources. The second witness is Ms. 
Kristen Fletcher, Executive Director of the Coastal States 
Organizations; Mr. Manly Barton, District 1 Supervisor, Jackson 
County Board of Supervisors; Mr. Matt Menashes, Executive 
Director of the National Estuarine Research Reserve 
Association; and Dr. Dennis Takahashi-Kelso, Executive Vice 
President of The Ocean Conservancy.
    We will begin with the testimony from Dr. William Walker.
    I would like to mention to the witnesses that we do have a 
timing process here. The red timing light that is right in 
front of you on the table will indicate when five minutes have 
passed, and your time has concluded. So we appreciate your 
cooperation with keeping with the timing. Your full written 
statement will be included in the record. Thank you.

STATEMENT OF WILLIAM W. WALKER, CHAIR, GULF OF MEXICO ALLIANCE, 
                      BILOXI, MISSISSIPPI

    Dr. Walker. Thank you, Madam Chair.
    Within days of the Deepwater Horizon oil spill, Mississippi 
began putting together a plan to protect and, if necessary, 
clean up coastal Mississippi following the explosion and 
sinking of the Deepwater Horizon. This plan is consistent with 
the area contingency plan as required by the Oil Pollution Act 
of 1990. This plan is also consistent with Mississippi's 
coastal program, a Federally approved coastal management plan 
as required by the Coastal Zone Management Act of 1972.
    Our first priority was protection of the critical marsh 
habitat that serves as nursery ground and protective refuge for 
Mississippi's juvenile shrimp, crab, and fish species. 
Mississippi's plan to combat this oil spill has been provided 
to you. The plan has several facets and triggers that, when 
pulled, result in specific actions.
    Our preference and first line of defense is to fight this 
spill offshore at the site of the spill, far from Mississippi's 
coastline.
    Currently, while some relatively small patches of weathered 
oil and sheen have reached our barrier islands and into the 
Mississippi Sound, the vast majority of oil--crude and degraded 
forms--remains offshore. The key to success here is closing off 
or significantly reducing the introduction of new crude oil 
into the water. If those efforts are successful, we should be 
able to deal with most of the oil offshore.
    With regard to other funding that might be applied to the 
activities associated with this event, I am pleased that BP has 
pledged $500 million to research, monitoring and restoration 
efforts in the aftermath of this massive oil release. I feel 
very strongly that a significant portion of these funds should 
flow through the Gulf of Mexico Governors Alliance, a 
partnership of the Governors of the five states which border 
the Gulf of Mexico.
    The Gulf of Mexico Alliance is a partnership initiated in 
2004 by the States of Alabama, Florida, Louisiana, Mississippi 
and Texas, with the goal of significantly increasing regional 
collaboration to enhance the environmental and economic health 
of the Gulf of Mexico. The alliance is a state-led Federally 
supported partnership that works closely with a variety of 
partners. The alliance is focused on planning, implementation, 
and management at the regional level, and has identified six 
priority issue areas that are significant to the Gulf of Mexico 
region. These areas are: improved water quality for healthy 
beaches and shell fish beds; habitat conservation and 
restoration; environmental education; ecosystem integration and 
assessment; producing nutrient input to coastal ecosystems; and 
building more resilient coastal communities.
    The alliance released its second action plan in June 2009. 
This plan is aggressive and addresses some of the most 
processing issues affecting the Gulf of Mexico region. The 
second action plan has been provided to you as well.
    The Gulf of Mexico region is continuing to demonstrate the 
power of partnership, and other regions of the continental 
United States are following our example. The Gulf Alliance is 
working closely with the interagency task force established by 
President Obama to develop a national plan for ocean governance 
and coastal and marine special planning. The Gulf Alliance is 
also working closely with the interagency working group 
established by the President to assist with recovery and 
restoration of Mississippi and Louisiana following Hurricane 
Katrina in 2005.
    The Gulf of Mexico Alliance is well positioned to play a 
significant role in the current oil event in the Gulf. The Gulf 
Alliance presently has teams of qualified people working 
together in the Gulf now for almost nine years, and they are in 
place to respond to the research, monitoring and remediation 
needs brought on by the Deepwater Horizon explosion and 
resulting continuing oil spill. BP has pledged $500 million to 
fund a 10-year research program focused on assessing long-term 
effect of this event. Mississippi Governor Haley Barbour, who 
presently serves as the gubernatorial lead for the Gulf 
Alliance, has made it clear to BP that his expectation is that 
a significant portion of these funds in fact are placed with 
the Gulf of Mexico Alliance.
    To date, two other Governors have joined Governor Barbour 
and the final two should pledge their support soon. Governor 
Barbour also discussed his desires with President Obama during 
the President's recent visit to Mississippi.
    In closing, I ask for your consideration and support of 
using the funds pledged by BP to leverage funding already 
provided to the Gulf region by NOAA, U.S. EPA, U.S. Army Corps 
of Engineers, Department of the Interior, USDA, and by 
congressional action itself to allow the Gulf of Mexico 
Alliance to continue to make improvements in the Gulf region 
that will result in improving environmental health, the 
economy, and the overall quality of life in the Gulf of Mexico 
region. Thank you.
    [The prepared statement of Dr. Walker follows:]

      Statement of William W. Walker, Ph.D., Executive Director, 
               Mississippi Department of Marine Resources

    Within days of the Deepwater Horizon Oil Spill, the Mississippi 
Department of Marine Resources, the Mississippi Department of 
Environmental Quality, Mississippi Emergency Management Agency, and 
Governor Haley Barbour began putting together a plan to protect and if 
necessary clean up Coastal Mississippi following the explosion and 
sinking of the Deepwater Horizon drilling platform and the resultant 
release of crude oil into the waters of the Gulf of Mexico at a site 
some 96 miles south southeast of Mississippi's coastline.
    This Plan is consistent with the Area Contingency Plan (ACP) 
developed by the Mobile Sector Area Committee (AC) as required by the 
Oil Pollution Act of 1990. This Plan is also consistent with 
Mississippi's Coastal Program, our federally (NOAA)-approved coastal 
management plan which addresses energy facilities located in or which 
may affect our coastal zone as required by the Coastal Zone Management 
Act of 1972.
    Regarding protecting Coastal Mississippi, MDMR and MDEQ decided 
early on that our first priority was protection of the critical marsh 
habitat that serves as nursery ground and protective refuge for 
Mississippi's juvenile shrimp, crab, and fish species. These priority 
areas were communicated to BP, and BP contractors have protected these 
areas with boom material. Presently, the following areas are protected 
with boom: Grand Bay, the Pascagoula River, Biloxi Bay, Bay St. Louis, 
and the marshes west of Bayou Caddy. Additional marsh areas requested 
by our cities and counties have also been boomed. On Monday of this 
week we began installing a second layer of larger boom in all of these 
areas to further fortify and protect our sensitive and critical habitat 
and nursery areas. We have installed strategic test areas nearly two 
miles of absorbent silt fencing designed to allow water but not oil to 
pass supplement the booms. This fencing has worked well, and we have 
asked BP to approve installation of 30 additional miles.
    Mississippi's plan to combat this oil spill is attached. The Plan 
has several facets and triggers that, when pulled, result in specific 
actions. Our preference and first line of defense is to fight this 
spill offshore, at the site of the spill. Our first trigger is pulled 
when oil material is detected within 30 miles of our barrier islands, 
some 45 miles offshore from our coastal beaches. This trigger was 
pulled on May 31 when degraded oil and sheen was detected some 40 miles 
south of Horn and Petit Bois Islands which are located 12 miles south 
of Mississippi's coastline. Pulling this trigger resulted in BP 
contractors deploying collection vessels to the location and removal of 
all material related to the oil spill.
    Our second trigger is activated when oil material is detected on 
our barrier islands. This trigger was pulled on June 1 when balls or 
patties degraded oil were reported onshore on Petit Bois Island. 
Pulling this trigger resulted in BP contractors deploying personnel to 
Petit Bois Island to pick up this material and place it in plastic bags 
for analysis and landfill disposal.
    Our third trigger is pulled when oil material is reported north of 
our barrier islands in the Mississippi Sound. This trigger was pulled 
on June 2 when weathered oil was reported north of Petit Bois Island, 
and resulted in BP contractors sending vessels to the area to pick up 
the material. All of these actions were executed in concert with the 
plan and all were successful. The good news is that these events were 
relative small portions of weathered oil material that had broken away 
from the main body of the oil, which remains today some 70 or so miles 
south of our barrier islands. Degraded oil south of Mobile Bay is only 
25 to 30 miles away from our barrier islands, and BP contractors are 
aggressively skimming that material. Should more significant amounts of 
oil material enter the Mississippi Sound, we are prepared to skim it, 
corral it with boom, and where feasible burn it to keep it from 
reaching our mainland coast.
    Our fourth trigger is pulled when oil material reaches our mainland 
beaches and wetlands, and our fifth trigger is pulled when oil material 
reaches our bays, rivers, and bayous. Thankfully, these final two 
triggers have not been pulled, and we continue to work to ensure that 
we will not have to trigger them. We are, however prepared to do so if 
necessary.
    So, our current situation is that while some relatively small 
patches of weathered oil and sheen have reached our barrier islands and 
into the Mississippi Sound, the vast majority of oil, crude and 
degraded forms, remains offshore. This is in part due to favorable 
weather conditions. Prevailing winds continue to move the oil away from 
Mississippi. Current winds are pushing the oil to the east, away from 
our shores. And, anticipated winds from the north will move the oil 
farther south. Also, there is a tremendous level of activity going on 
at the site of the spill to skim, burn, and siphon the oil to reduce 
the amount of product on the surface of the water. And, the use of 
dispersants, both sprayed from airplanes at the surface and injected 
subsurface at the source of the emerging crude, is successfully 
breaking the crude oil into hundreds and thousand of small droplets 
with significantly increased surface area available to microorganisms 
capable of biologically degrading or ``eating'' the oil. These 
microorganisms are present in the Gulf because of natural oil seeps 
that release about 250,000 barrels of oil annually into Gulf of Mexico 
waters. These bacteria would not be there if not for the oil seepage, 
and they are quite capable of metabolizing the oil, especially in 
dispersed form.
    Now a word about the subsurface ``oil plumes.'' Dispersants serve 
to break crude oil into small particles of varying size and buoyancy. 
When dispersed, these particles float in the water column and drift 
with the prevailing current. As these particles drift in the current, 
the bacteria naturally present in the environment metabolize the oil, 
reducing it over time ultimately to carbon dioxide and water.
    The key to success here is closing off or significantly reducing 
the introduction of new crude oil into the water. If those efforts are 
successful, we should be able to deal with most of the oil offshore. If 
that is the case, Mississippi's short term effects should be minimal. 
Even if we are successful in dealing with the oil offshore, questions 
about long term effects remain. Long term effects on populations of 
marine species whose larval forms are currently present in the area of 
the spill are unknown and will take years to assess and monitor. 
Fortunately, Mississippi has talented and qualified scientists who 
stand at the ready to address these long term concerns and questions.
    With regard to other funding that might be applied to the 
activities associated with this event, I am pleased that BP has pledged 
$500 million to research, monitoring, and restoration efforts in the 
aftermath of this massive oil release. I feel very strongly that a 
significant portion of these funds should flow through the Gulf of 
Mexico Governors' Alliance, a partnership of the governors of the five 
states which border the Gulf of Mexico. Contained within the membership 
of the Gulf Alliance are academic institutions, state agencies, NGOs, 
and others from all five Gulf states, as well as an outstanding group 
of federal agencies. I will speak about the Gulf Alliance later in this 
testimony and provide you with the Alliance's latest Action Plan. I 
hope you will get a flavor of the overall focus and capability of the 
Alliance and I hope you will agree that this is the proper mechanism 
for designing and implementing the BP research, monitoring, and 
restoration effort.
    Let me close by once again stressing that BP has stepped forward as 
the responsible party and said repeatedly and publically that they will 
pay all costs associated with damage assessment, mitigation, and 
compensation. BP has provided Mississippi with $50 million to reimburse 
cities and counties for lost revenues, for the purchase of equipment 
necessary to deal with the oil spill, and for other purposes. BP has 
promised additional funds are available for these purposes if needed. 
BP has paid $6 million in claims directly to Mississippi citizens and 
businesses. They have denied no claims to date, although some continue 
to be under investigation. BP has provided $15 million to Mississippi 
to promote tourism, and have put 2000 Mississippians to work.
The Gulf of Mexico Alliance
    The Gulf of Mexico Alliance is a partnership, initiated in 2004, by 
the states of Alabama, Florida, Louisiana, Mississippi, and Texas, with 
the goal of significantly increasing regional collaboration to enhance 
the environmental and economic health of the Gulf of Mexico. The 
Alliance is a state led, federally supported partnership that works 
closely with a variety of partners, including state agencies and 
academic institutions, the Gulf of Mexico Foundation, the Northern Gulf 
Institute, the Hart Research Institute, the Nature Conservancy, and the 
six Mexican states.
    The Alliance is focused on planning, implementation, and management 
at the regional level and has identified six priority issues that are 
significant to the Gulf of Mexico Region and that can be more 
effectively addressed through collaboration at state, local, and 
federal levels. Each issue area has a team of scientists and resource 
managers working to establish priorities and plans to address the most 
pressing issues. These issue areas are:
        <bullet>  Improved Water Quality for Healthy Beaches and 
        Shellfish Beds
        <bullet>  Habitat Conservation and Restoration
        <bullet>  Environmental Education
        <bullet>  Ecosystem Integration and Assessment
        <bullet>  Reducing Nutrient Impacts to Coastal Ecosystems
        <bullet>  Coastal Community Resilience
    The five U.S. Gulf state governors released the 1st Governors' 
Action Plan for Healthy and Resilient Coasts in March 2006. That first 
plan challenged the new Alliance partnership to make tangible progress 
over the next 36 months. Ninety-six specific deliverables were 
contained in Action Plan I, and 96% of them were accomplished over the 
3-year span of the Plan.
    Building on the success of the first Plan, the Alliance released 
the second Governors' Action Plan in June 2009. The 2nd Plan is longer 
and more aggressive and addresses some of the most pressing issues 
affecting the Gulf of Mexico Region. The 2nd Action Plan is provided as 
a handout.
    The Gulf of Mexico Region continuing to demonstrate the power of 
partnership, and other regions of the continental United States is 
following our example. This national trend of regional ocean 
partnerships is exemplified by the West Coast Governors' Agreement on 
Ocean Health, the Great Lakes Regional Collaboration, the Northeast 
Regional Ocean Council, the Mid-Atlantic Regional Council on the Ocean, 
the Governors' South Atlantic Alliance, and the Gulf Alliance. The Gulf 
Alliance, along with the other U.S. Regional partnerships, is working 
closely with the Interagency Task Force established by President Obama 
to develop a national plan for ocean governance and coastal and marine 
spatial planning. The Gulf Alliance is also working closely with the 
Interagency Work Group established by the President to assist with the 
recovery and restoration of Mississippi and Louisiana following 
Hurricane Katrina in August 2005. With respect to Katrina, in January 
2006 Congress directed the Mobile District of the U.S. Army Corps of 
Engineers to develop a comprehensive plan to restore Mississippi. At 
the direction of Gov. Haley Barbour and in my position of co-lead of 
the Gulf Alliance, I worked closely with the Mobile Corps District to 
ensure that the developed plan, the Mississippi Coastal Improvements 
Program (MSCIP), was directly aligned with the goals and objectives of 
the Gulf Alliance. MSCIP is complete, it has been signed by the 
Secretary of the Army, and it has been presented to Congress. The cost 
to fully implement MSCIP is $1.2 billion, and you have funded Phase 1of 
the plan at the level of $439 million focused on restoring our barrier 
islands and our coastal wetland and wildlife nursery areas. For that I 
say thank you and I ask that you continue your support of Mississippi's 
recovery and restoration through MSCIP.
    The Gulf of Mexico Alliance is well positioned to play a 
significant role in the current oil event in the Gulf. The Gulf 
Alliance presently has teams of qualified people working together in 
the Gulf working on the projects outlined in Action Plan II. These 
folks have been working together now for almost nine years, and they 
are in place to respond to the research, monitoring, and remediation 
needs brought on by the Deepwater Horizon explosion and resulting 
continuing oil spill. BP has pledged $500 million dollars to fund 10-
year research program focused on assessing long-term effects of this 
event, putting appropriate remediation and recovery actions in place, 
and monitoring the recovery of the Gulf Region once the event is over. 
Mississippi Governor Haley Barbour, who presently serves as 
gubernatorial lead for the Gulf Alliance, has made it clear to BP that 
his expectation is that a significant portion of those funds is, in 
fact, placed with the Gulf of Mexico Alliance. To date, two other Gulf 
governors have joined to support Gov. Barbour's request. The remaining 
two should place their support. Gov. Barbour also discussed this 
situation with President Obama during the President's recent visit to 
Mississippi. Placing these funds with the Gulf Alliance will ensure 
that an appropriate, comprehensive, and meaningful research plan is 
developed, that the region's best and brightest minds are brought to 
bear on this issue, that the research will be carried out by competent 
individuals familiar with and working in the region, and that the 
result will be that the region will be ultimately restored to 
conditions better than before the event occurred on April 20, 2010.
    I ask for your consideration and support of using the support 
pledged by BP to leverage funding already provided to the region by 
NOAA, USEPA, USACOE, DOI/MMS, USDA and by Congressional action, to 
allow the Gulf of Mexico Alliance to continue to make improvements in 
the Gulf Region that will continue to result in improving the 
environmental health, the economy, and the overall quality of life in 
the Gulf of Mexico Region.

                      www.gulfofmexicoalliance.org

    Thank you for the opportunity to provide this testimony today.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Walker, for your insight on 
planning efforts by the State of Mississippi and the Gulf of 
Mexico Alliance.
    Ms. Fletcher, welcome back to the Committee, and please 
proceed with your testimony.

  STATEMENT OF KRISTEN FLETCHER, EXECUTIVE DIRECTOR, COASTAL 
             STATES ORGANIZATION, WASHINGTON, D.C.

    Ms. Fletcher. Thank you. Chairwoman Bordallo, Ranking 
Member Cassidy, and distinguished members of the Subcommittee, 
good morning. It is a pleasure to be with you today.
    My name is Kristen Fletcher and I am Executive Director of 
the Coastal States Organization known as CSO. CSO represents 
the interests of the Governors of the 35 coastal states and 
territories on coastal, ocean, and Great Lakes issues. Thank 
you for the opportunity to testify.
    While the Deepwater Horizon blowout was not deliberate, it 
is our obligation to be deliberate in our response to it, to be 
bold in putting in place the resources, authorities, and plans 
to reduce the chances for such an environmental disaster in the 
future. CSO appreciates the leadership of this Subcommittee in 
ensuring state authority and capacity to address natural 
resource needs. It is time to renew this commitment to coastal 
states' ability to plan, prepare, and respond to impacts from 
energy development.
    My testimony will focus on consistency review under the 
Coastal Zone Management Act, also known as the CZMA, and how 
that works with the Oil Pollution Act to enable a more thorough 
planning and response effort. Examples from two oil spill 
affected states--Alaska and California--will show why these 
efforts are so critical. I will conclude with recommendations 
for Federal actions.
    The Coastal Zone Management Act consistency review serves 
as a valuable tool for states to review Federal activities that 
impact the coastal zone. This authority is even more vital in 
light of the spill's impacts on coastal resources in the Gulf 
and potentially beyond. A Gulf of Mexico leak, releasing 
thousands of barrel of oil per day that may reach the coast of 
South Carolina within the summer, is a prime example of the 
interconnectedness of coast and ocean ecosystems and the need 
for state review. Alaska's consistency review of OCS 
exploration provides opportunities to prepare for the unique 
arctic conditions in that state. California's bill response 
standards were developed during state consistency review of oil 
and gas activities, and served as a foundation for California's 
Oil Spill Prevention and Response Act.
    States integrate CZMA authority with requirements under the 
Oil Pollution Act. Alaska has used authority from both statutes 
in planning for potential blowout. The initial Deepwater 
Horizon flow estimates were 1,000 barrels per day but are now 
exponentially greater.
    In Alaska's review of Shell's Chukchi Sea Exploration Plan, 
there was not sufficient data to determine historical flow 
rates from the well in question, so the state required that 
Shell be able to respond to higher volumes of flow if the 
actual flow rate increased.
    When a spill occurs in California, the state ensures that 
all affected resources are included in the assessment of 
natural resource damages. In the past, California has requested 
assessments for public access impacts, beach closures, and 
tourism loss, in addition to natural resource damages, such as 
fishery closures and wildlife losses.
    This integration of CZMA and Oil Pollution Act authority 
enables a more thorough state, Federal, and private response. 
However, because state capacity is limited, CSO recommends the 
following Federal actions:
    First, because the CZMA plays such a vital role in 
preparing for coastal emergency, the fact that it has awaited 
reauthorization for 10 years reveals a crack in the foundation 
of state preparedness. CSO recommends that Congress reauthorize 
the CZMA.
    Second, the Outer Continental Shelf Lands Act currently 
provides a 30-day window for the review of OCS exploration 
plans. States cannot conduct an effective consistency review in 
30 days. CSO recommends that Congress extend the review period 
to allow states to conduct proper reviews.
    Finally, most states do not have the capacity to implement 
their own inspection program of offshore platforms and have 
relied on MMS inspection reports. CSO recommends that Congress 
provide funds for states to participate in the MMS inspections 
to enable a more thorough and objective review.
    The Deepwater Horizon spill has starkly illustrated the 
research needs and planning for and responding to spills. CSO 
recommends that Congress call for enhanced research, including 
boom technology that enables better environmental protection 
and evaluation of the impacts of dispersants on natural 
resources. CSO also recommends that Congress provide NOAA the 
resources to serve as an oil spill portal for dissemination of 
key information and lessons learned. A model portal has been 
created by the Gulf Sea Grant Programs that have identified 
spill-related research needs to pursue through their Gulf-wide 
research program.
    In closing, as someone who is inspired by the sea and a 
former resident of both Alabama and Mississippi, it is my honor 
to testify on how to prevent and prepare for a spill like the 
one affecting the people, marine life and ecosystem of the Gulf 
Coast. Thank you again for your leadership on these issues. I 
welcome any questions you may have.
    [The prepared statement of Ms. Fletcher follows:]

         Statement of Kristen M. Fletcher, Executive Director, 
                      Coastal States Organization

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the subcommittee, my name is Kristen Fletcher and I am 
Executive Director of the Coastal States Organization. For the last 40 
years, CSO has represented the interests of the Governors of the 35 
coastal states and territories in Washington, DC on legislative and 
policy issues relating to the sound management of coastal, Great Lakes, 
and ocean resources. Thank you for the opportunity to testify regarding 
state preparedness for offshore energy development and response. Please 
include my written testimony in the record.
    CSO recognizes the consistent leadership of this subcommittee in 
ensuring that states have the appropriate authorities and resources to 
address natural resource needs, especially on the coast. There is no 
more critical time than now to renew this commitment to coastal states' 
ability to plan, prepare and respond to impacts from offshore energy 
development. While the Deepwater Horizon blow-out was not deliberate, 
it is our obligation as a nation to be deliberate in our response to 
it, to be bold in looking ahead and putting in place the resources, 
authorities and plans in order to reduce the chances for such an 
environmental disaster in the future.
    My testimony on behalf of the coastal state and territory governors 
will focus first on state planning efforts and existing authorities, 
especially consistency review under the Coastal Zone Management Act and 
how the CZMA works with the Oil Pollution Act to present a more 
thorough planning and response effort. Second, I will offer 
recommendations for federal action to assist the states. Both of these 
points will be placed in context by examples from Alaska and California 
showing why these efforts are so critical to state preparedness.
I. Planning Efforts and Existing Authority
    While each U.S. coastal state has different planning and response 
authorities, consistency review under the Coastal Zone Management Act 
(CZMA) serves as a valuable tool among the nation's 34 states with 
approved coastal programs. Throughout the history of the CZMA, one of 
the greatest incentives for states to participate in the nation's 
coastal management program is the ability to review federal activities 
in and beyond state waters that have an impact on the coastal zone. 
This review indicates whether the project is consistent with the 
state's coastal program and policies. This authority has become even 
more vital in light of the spill and its myriad impacts on state 
coastal resources - in the Gulf and potentially beyond. A Gulf of 
Mexico oil leak releasing thousands of barrels per day that may reach 
to the Northeast U.S. within a few months is a prime example of the 
interconnectedness of coastal and ocean ecosystems and the need for 
state review even if potential impacts seem unlikely.
    CZMA consistency can be employed in a proactive manner to review 
plans developed by the federal government in preparation for incident 
response. The coordination role of state CZMA consistency coordinators 
is also a valuable tool in the development or updating of those plans. 
State coastal programs, through their partnerships with NOAA, are 
uniquely set up to facilitate the coordination of government agency 
technical staff, elected officials, and other stakeholders in 
preparation for disasters such as these as well as natural disasters. 
This coordination identifies available resources and potential needs 
for additional resources for adequate, timely responses to such 
incidents.
    For example, CZMA consistency is a critical part of State of Alaska 
review of Outer Continental Shelf (OCS) oil and gas project proposals. 
Within Alaskan waters, the issuance of permits, certifications, 
approvals, and authorizations of the Alaska Department of Environmental 
Conservation establishes consistency with the Alaska Coastal Management 
Program for oil spill planning. In federally administered lands and the 
OCS, state environmental statutes and regulations serve as the basis to 
determine consistency of proposed oil and gas activities. The CZMA 
consistency review process for OCS oil and gas exploration provides 
public input opportunities in order to fine tune spill contingency 
plans so that they incorporate appropriate Arctic conditions into 
response scenarios, and adequately address logistical obstacles that 
could affect response capabilities.
    California's federal consistency authority, as authorized by the 
CZMA and the federally certified California Coastal Management Program, 
has been very important for requiring offshore oil and gas development 
projects to provide for systems safety and oil spill prevention and 
response measures. The oil spill equipment and response standards 
developed during the California Coastal Commission's CZMA federal 
consistency review and approval of the offshore oil and gas platforms 
during the 1980s provided a foundation for the development of 
California's Lempert-Keene-Seastrand Oil Spill Prevention and Response 
Act of 1990 and the implementation of its statewide regulations and 
programs. The Coastal Act Policy 30232 compliments it by requiring: 
``Protection against the spillage of crude oil, gas, petroleum 
products, or hazardous substances shall be provided in relation to any 
development or transportation of such materials. Effective containment 
and cleanup facilities and procedures shall be provided for accidental 
spills that do occur.''
II. Case Studies for Preparedness: OPA and the CZMA
A. Statewide Efforts
    Both Alaska and California provide excellent case studies of 
coordination, capacity, and lessons learned and demonstrate the 
assistance needed from the federal government in order to better 
prepare for emergencies related to offshore energy development. Much of 
the current federal and state law regarding spill response in Alaska is 
based upon the State of Alaska's experience with the Exxon Valdez oil 
spill. State and Federal response and preparedness planning is guided 
by the National Contingency Plan and state law.
    As the law that establishes the federal response and supports state 
responses, the Oil Pollution Act of 1990 (OPA 90) requires the 
development of Area Contingency Plans. In Alaska, this applies to four 
main regions. State law divides Alaska into ten separate regions for 
spill response planning, which addresses the OPA requirements through 
the publication and regular update of the Unified Plan. In addition, 
Alaska has developed a number of specific spill response tools to 
supplement the information provided in the Unified Plan. The Department 
of Natural Resources is the lead agency for coastal zone management 
plans and regularly coordinates with state resources agencies, coastal 
district management plan representatives, cities and boroughs, Native 
organizations, federal agencies, regional citizen advisory councils, 
and the public.
    Oil spill drills and exercises provide valuable opportunities to 
identify gaps in response readiness and capability. In a large spill 
incident Alaska's State On-Scene Coordinator works closely with the 
U.S. Coast Guard and the Environmental Protection Agency as part of the 
Unified Command. In incidents where an oil spill is located outside of 
state waters, but poses an imminent threat to state waters, Alaska is 
notified by the U.S. Coast Guard and the two agencies work closely to 
identify priority protection sites by coordinating them with both state 
and federal agencies. A prime example of the coordination efforts 
between state and federal agencies can be seen in the CANUS North Joint 
Pollution Contingency Plan exercises in the Beaufort Sea north of 
Alaska which includes state and federal agencies as well as Canadian 
agencies and regional stakeholders. These exercises are held regularly 
to improve joint response capabilities.
    The California Office of Spill Prevention and Response (OSPR) is 
the State's lead Trustee agency for natural resource damage assessment 
(NRDA) and restoration. OSPR uses the federal NOAA NRDA process and 
calculations developed under OPA 90. OSPR confers with the other state 
and local agencies within California - e.g., Coastal Commission, State 
Parks, State Lands Commission, Native American Council, Counties and 
Cities - to ensure that all resources that may have been impacted by an 
oil spill have been included in the NRDA. This coordination works well 
to ensure that CZMA resources issues are adequately addressed in the 
NRDA process. For example, in a past spill, the Coastal Commission 
requested the addition of assessments for public access impacts, beach 
closures, and tourism loss in addition to the already identified NRDA 
impacts for seafood industry loss, fishery closures, oiled bird and 
wildlife losses. After the NRDA process has reached litigation or 
settlement, then the monies go to restoration projects with the federal 
and state trustee agencies. The Coastal Commission, pursuant to the 
California Coastal Act and as the CZMA representative for California, 
is often involved in the development and review/permitting of post-oil 
spill restoration projects in the coastal zone.
    One example of the critical interplay between OPA and the CZMA is 
the review of flow rates from an offshore well. The initial Deepwater 
Horizon incident flow rate estimates were 1,000 barrels per day, 
subsequently increased to 5,000 barrels per day, and now appear to be 
greater than 25,000 barrels per day, possibly as great as 60,000 
barrels per day. In Alaska's consistency review of Shell's Chukchi Sea 
Exploration Plan, there was not sufficient well data to determine 
historical well flow rates, so the state made the following requirement 
a condition for finding Shell's Exploration Plan and C-Plan consistent 
with Alaska standards: ``If the actual flow rate of a well exceeds 
5,500 barrels per day, and Shell is to continue drilling, the response 
planning standard (RPS) volume must be increased for subsequent 
exploration wells drilled to an RPS volume taking into account the 
actual flow rate of the well.'' The CZMA consistency authority 
complements the requirements under OPA, allowing for a more thorough 
state, federal, and private response.
B. Building Local Capacity
    The CZMA enables effective local response as well. The Local 
Coastal Program component of California's statewide program gives added 
strength to the review and oversight of the onshore facilities 
supporting offshore oil and gas development. The County of Santa 
Barbara has certified Local Coastal Program policies and ordinances 
that mirror and expand upon the Coastal Act's policies for resource 
protection and oil spill prevention and response. The County's coastal 
development permits for the onshore facilities supporting offshore oil 
and gas development have explicit conditions for frequent inspections, 
operation manuals, safety systems requirements, and oil spill 
prevention and response requirements. As an example, the County's 
System Safety Program requires monthly inspections of the onshore 
facilities, and has public meetings for the review of oil and gas 
facility safety deficiencies. The County also reviews all changes to 
the oil spill contingency/response plans for the platforms, and all 
changes to response equipment configurations.
    In Alaska, two Regional Citizen's Advisory Councils were created 
under OPA 1990 and both are quite actively engaged and involved with 
oil spill response planning efforts in Prince William Sound and Cook 
Inlet. A new Advisory Council for the Arctic Ocean would presumably 
benefit planning efforts for that region of Alaska. Good coordination 
also exists in Alaska among state and federal agencies including the 
U.S. Coast Guard, the Environmental Protection Agency and the Minerals 
Management Service. For example, oil spill drills and table-top 
exercises are routinely coordinated among the state and federal 
agencies, plan holders and response action contractors to demonstrate 
competency with the incident command system procedures, communications, 
planning, logistics, operations, equipment maintenance and tactics.
III. Recommendations for Federal Action
    Even though the CZMA and OPA provide adequate authorities for 
planning and response, the effectiveness of these statutes is limited 
by limited capacity and resources. CSO recommends that Congress 
consider updates to these laws along with federal assistance in 
research and implementation.
A. Legislative Actions and Appropriations
    As the CZMA plays such a vital role in planning for management of 
coastal resources and responses to environmental emergencies such as 
the Deepwater Horizon Spill, the fact that it has been overdue for 
reauthorization since 2000 shows a crack in the foundation for state 
preparedness. With unanimous support from its members, CSO issued a 
draft bill in 2008 which provides for more thorough planning at the 
state level, regional collaboration, and management of renewable energy 
development. While the existing CZMA provides enough flexibility for 
states to develop effective responses to a spill, the need for 
reauthorization is evident.
    With respect to the Outer Continental Shelf Lands Act, it currently 
provides a 30-day window for the review and approval of OCS Exploration 
Plans. It is impossible for the CZMA state agencies to conduct a 
federal consistency review within a 30-day window. CSO recommends that 
Congress extend the 30-day review period to allow for CZMA state 
agencies to conduct federal consistency reviews.
    Finally, most states do not have the funds or staff to implement 
their own inspection program of the offshore oil and gas platforms, and 
therefore have relied on reports from the MMS inspection of the federal 
platforms. CSO recommends that Congress provide funds for CZMA state 
agency and applicable local government agencies to participate in the 
MMS inspections of the offshore oil and gas operations to enable a more 
thorough and objective review.
B. Research and Information Dissemination
    The Deepwater Horizon spill has starkly illustrated the research 
needs in the planning and response for oil spills. For example, 
conventional containment and exclusion booms begin to fail when 
currents exceed \3/4\ knots. This limitation makes spill containment 
and protection of environmentally sensitive areas difficult if not 
impossible. Many states need a deployable boom that operates 
effectively in complex, high-velocity currents and high waves that are 
frequently encountered in coastal environments. CSO recommends that 
Congress call for enhanced boom technology that can operate in high 
currents and in high waves.
    In light of the heavy dispersant use in the BP Deepwater Horizon 
oil spill, states and their citizens have concerns about the potential 
adverse effects of dispersants on the ocean's sensitive ecosystem, 
especially the deep ocean. CSO recommends that Congress provide for the 
evaluation of the impacts of dispersants on natural resources in the 
water column, at depth, offshore, nearshore and along the coast and how 
it affects different life stages of finfish and shellfish. Such an 
evaluation should include impacts of dispersants on the persistence of 
oil in ecosystems due to oil settling and being re-suspended.
    Alaska has particular needs in this area as applied research 
efforts are needed to establish and distribute information about the 
current best available technology for oil spill response activities 
under Arctic and sub-arctic conditions. Examples include technology for 
tracking oil spills under ice, blowout prevention, toxicity and 
effectiveness of dispersants in cold, marine waters, in-situ burning 
and other response techniques during broken ice conditions, and 
improved weather and storm prediction in Arctic waters. Grants could 
assist communities with spill protection of subsistence resources and 
with planning, coordination and communication efforts. Federal funding 
could help the U.S. Coast Guard acquire Arctic-capable assets and could 
help construct port facilities in Arctic Alaska, which would improve 
response capabilities and simplify planning logistics.
    Finally, CSO recommends that Congress provide NOAA the resources to 
serve as a Portal for Dissemination of Lessons Learned from BP Oil 
Spill. As a result of the BP Deepwater Horizon oil spill, the Gulf of 
Mexico Sea Grant Programs' website (http:/gulfseagrant.tamu.edu/
oilspill/GMRP_oil_spill_research.htm) has posted an addendum of 
research topics that will be added to its Gulf of Mexico Research 
Program. The research topics include ecosystem impacts, community 
resilience, fisheries, restoration post-spill, tourism, ecosystem 
services, impacts from dispersants, displaced people and workers, 
seafood industry, etc. The lessons learned from this research will be 
beneficial to the coastal states and territories for oil spill 
preparedness, response, recovery and restoration. This portal could 
provide a valuable mechanism for coastal states to review and offer 
input and could be paired with funding for NOAA or the Gulf States Sea 
Grant Programs to hold research and policy conferences for the 
information dissemination to other coastal states and communities.
Closing
    In closing, thank you again for your leadership on these issues and 
for inviting me to testify today. The coastal states and territories 
look forward to continued work with committee staff, nongovernmental 
partners, federal agencies and others to ensure healthy oceans in the 
future. I welcome any questions you may have.
                                 ______
                                 

Response to questions submitted for the record by Kristen M. Fletcher, 
            Executive Director, Coastal States Organization

    We appreciate the opportunity to elaborate on testimony offered on 
June 24 on regarding state preparedness for offshore energy development 
and response and the leadership of the Subcommittee on these issues.
Questions from Chairwoman, Congresswoman Madeline Z. Bordallo (D-GU)
1.  Under the Coastal Zone Management Act of 1972, coastal States are 
        required to have included in their Federally-approved coastal 
        management plans, a planning process for energy facilities in 
        the coastal zone, including a process for anticipating the 
        management of the impacts resulting from such facilities. Have 
        these planning efforts been adequate to respond to an oil spill 
        of this size and complexity? Should the Federal government 
        provide additional technical or financial resources to assist 
        coastal States for oil spill planning, logistics, response, and 
        recovery?
    Although states use their oil spill and coastal management planning 
processes to prepare for a catastrophic spill like the complexity and 
magnitude of the Deepwater Horizon, there is no level of response 
equipment and emergency preparedness planning that is sufficient to 
effectively prevent the devastating impacts to the natural, economic, 
and social ecosystems that will occur from a catastrophic ongoing spill 
like the BP Deepwater Horizon well-blowout.
    CSO does encourage additional financial and technical resources 
from the federal government to ensure state and federal preparedness. 
CSO recommends that Congress provide funds for CZMA state agency and 
applicable local government agencies to participate in the MMS 
inspections of the offshore oil and gas operations to enable a more 
thorough and objective review. CSO recommends that Congress call for 
enhanced boom technology that can operate in high currents and in high 
waves, provide for the evaluation of the impacts of dispersants on 
natural resources in the water column, at depth, offshore, nearshore 
and along the coast and how it affects different life stages of finfish 
and shellfish. The Arctic has particular needs in this area as applied 
research efforts are needed to establish and distribute information 
about the current best available technology for oil spill response 
activities under Arctic and sub-arctic conditions. Federal funding 
could help the U.S. Coast Guard acquire Arctic-capable assets and data 
which would improve response capabilities and simplify planning 
logistics. Finally, CSO recommends that Congress provide NOAA the 
resources to serve as a Portal for Dissemination of Lessons Learned 
from BP Oil Spill. The lessons learned from this research will be 
beneficial to the coastal states and territories for oil spill 
preparedness, response, recovery and restoration.
2.  Your testimony makes clear that the Coastal Zone Management Act and 
        the Oil Pollution Act are complimentary, but it is not clear 
        how State and Federal contingency planning processes are 
        coordinated with industry planning processes? How are these 
        integrated and where can improvements be made?
    Alaska provides a good example of the integration. While the state 
notes that there is always room for improvement in any government-led 
coordination effort, Alaska generally has good coordination and 
participation among various governments and stakeholder groups for 
planning efforts under both OPA and CZMA. The Department of Natural 
Resources is the lead agency for coastal zone management plans and 
regularly coordinates with state resources agencies, coastal district 
management plan representatives, cities and boroughs, Native 
organizations, federal agencies, regional citizen advisory councils, 
and the public. Two Regional Citizen's Advisory Councils (RCACs) were 
created under OPA 1990 and both are quite actively engaged and involved 
with oil spill response planning efforts in Prince William Sound and 
Cook Inlet. Councils like this one provide good examples for future 
improvements toward integrated processes.
    Furthermore, the Oil Spill Pollution Act of 1990 (OPA 90) requires 
the development of Area Contingency Plans for four main regions in 
Alaska. State law divides Alaska into ten separate regions for spill 
response planning, which addresses the OPA requirements through the 
publication and regular update of the Unified Plan. In addition, ADEC 
has developed a number of specific spill response tools to supplement 
the information provided in the Unified Plan including: Spill Tactics 
for Alaska Responders; Alaska Incident Management System Guide for 
Response to Oil and Hazardous Substance Releases; Permits Tool; Tundra 
Treatment Guidelines; Local Response Agreements; Statewide Hazmat Team 
Program; Geographic Response Strategies and Potential Place of Refuge 
documents; and Memoranda of Understanding/Memoranda of Agreement 
between federal and state agencies. These elements are integrated with 
other state planning efforts including coastal zone management.
    The California Area Committee process is another example of 
integration and specifically incorporates industry. The process has 
developed three regional Area Contingency Plans that cover the entire 
coast of California and all of San Francisco Bay. The process appears 
to be working well in California for improving oil spill emergency 
response planning efforts, improving coordination among government, 
non-government organizations, and industry, and for incorporating 
lessons learned from past spills. The Area Committees have been 
actively meeting since the mid 1990s. The Area Committees are co-
chaired by the California OSPR and US Coast Guard and include 
representatives from industry, non-governmental organizations, and 
local state and federal agencies. Each Area Committee is responsible 
for working with State and local officials to pre-plan for joint 
response efforts, including appropriate procedures for mechanical 
recovery, dispersal, shoreline cleanup, protection of sensitive 
environmental areas, and protection, rescue, and rehabilitation of 
fisheries and wildlife. Federal legislation can provide incentives for 
this type of collaboration and integrated planning.
    Pursuant to California's OSPRA 1990 and OPA 90, California's OSPR 
and the US Coast Guard have implemented a comprehensive oil spill 
drills and exercise program in California. Coordination among federal, 
state, local agencies, environmental groups, and industry during oil 
spill emergency response is continually being refined and improved as a 
result of the frequent regional and statewide oil spill drills. 
Pursuant to the California's OSPRA 1990, California's OSPR also has 
implemented a comprehensive equipment deployment drills and exercise 
program that routinely has announced and unannounced drills to test the 
response capability of the oil spill response organizations (``OSROs'') 
and owner/operator of vessels and marine facilities (e.g. marine 
terminals, platforms, processing facilities) operating in California). 
These drills and exercises test the capability for fast on-water 
containment and recovery by requiring the OSROs and company personnel 
to deploy oil spill response vessels and equipment (e.g., booms and 
skimmers) within California's oil spill response timeframes (e.g., 30 
minutes, 60 minutes, 2 hours, 6 hours).
    California uses the federal US Coast Guard Incident/Unified Command 
System for oil spill response. The central Unified Command consists of 
the California Office of Spill Prevention and Response as the lead 
State On-Scene Commander representing California, the US Coast Guard as 
the Federal On-Scene Commander, and the Responsible Party. In 
California, under the ICS there is also the Multi-Agency Coordination 
group that consists of the other affected state, federal, and local 
agencies - including the California Coastal Commission, Marine 
Sanctuaries, and local governments--that is supposed to have a direct 
dotted line of communication to the Unified Command in order to get 
their respective agency concerns addressed. After the 2007 Cosco Busan 
spill - and after much discussion and negotiation from Local 
Governments--Local Governments may now have a representative directly 
in the Unified Command to have direct input on response strategies for 
their local resources. Local Government may now also be tasked 
deploying boom to protect their local resources and coordinating the 
volunteer function. The adding of local government representatives to 
this federal/state/industry structure is also a potential area for 
improvement.
    The coordination role of state CZMA consistency coordinators is 
also a valuable tool in the development or updating of those plans. 
State coastal programs, through their partnerships with NOAA, are 
uniquely set up to facilitate the coordination of government agency 
technical staff, elected officials, and other stakeholders in 
preparation for disasters such as these as well as natural disasters. 
This coordination identifies available resources and potential needs 
for additional resources for adequate, timely responses to such 
incidents. The CZMA consistency review process for OCS oil and gas 
exploration provides public input opportunities in order to fine tune 
spill contingency plans so that they incorporate appropriate local, 
state or regional conditions into response scenarios, and adequately 
address logistical obstacles that could affect response capabilities. 
The continued support for coastal management programs and 
reauthorization of the CZMA is vital.
Questions from Ranking Republican Member, Congressman Henry E. Brown, 
        Jr. (R-SC)
1.  In your testimony, you state that the 30-day window for the review 
        and approval of OCS exploration plans is insufficient. Why is 
        it impossible for states to conduct a federal consistency 
        review in 30 days? How much time does a state need to review 
        these plans?
    Given the complexity of the plans and the importance of a thorough 
review, states have indicated the preference for at least 90 days or up 
to 180 days to review the plans. This is consistent with review 
requirements at the state and federal level for plans with similar 
levels of complexity.
2.  If the federal government is properly fulfilling its inspection 
        responsibilities, why do states have to have their own 
        inspection of offshore oil and gas platforms that are permitted 
        in federal offshore waters?
    CSO supports the states serving as an active partner with the 
federal agency in its inspections, rather than introducing a separate 
inspection into the process. CSO's recommendation that Congress provide 
funds for CZMA state agency and applicable local government agencies to 
participate in the MMS inspections of the offshore oil and gas 
operations will enable a more thorough and objective review, including 
from those most familiar with the local conditions and resources.
3.  Do states now inspect platforms on the federal OCS? Why should 
        states inspect federal projects in federal waters?
    Because most states do not have the funds or staff to implement 
their own inspection program of the offshore oil and gas platforms, 
they have relied completely on reports from the MMS inspection of the 
federal platforms. Consistent with the rationale in the Coastal Zone 
Management Act of 1972, because activities in federal waters have 
impacts in state waters, there is an inherent state interest in those 
activities. The Deepwater Horizon spill is a keen example of those 
unintended impacts.
4.  In the current fiscal year, the Congress has appropriated $67 
        million to the 29 states and 5 territories with approved CZMA 
        programs. How much of this money is spent on consistency 
        reviews? Isn't the overwhelming majority of this money spent on 
        the administrative costs of implementing the program?
    The amount of federal dollars spent on consistency reviews and 
program administration will vary with each state and territory 
depending on how those funds are leveraged. However, facts indicate 
that the $67 million appropriated to the state grant program is money 
that is leveraged well and spent on a diverse range of coastal and 
ocean priorities nationwide.
    While a 2:1 match is required, most states match at a higher rate 
than that, giving the federal government even more for its money. For 
example, in 2008, states leveraged their federal funding and state 
match to secure an additional 25% of investment for habitat, water 
quality, hazards, and public access projects.
    In South Carolina in FY '09, over $2.4 million (55% of the total 
program) was spent on coastal habitat conservation and restoration. In 
New Hampshire in FY '09, over $630,000 (30% of the total funding) was 
spent on community and other technical assistance including on-the-
ground coastal hazard mitigation. In Virginia in FY '09, just under $1 
million (20% of the total program) was spent on coastal water quality 
protection including education of municipal officials and enhanced 
nutrient removal technologies.
    Finally, compared to the ocean and coastal economy that this 
program supports, the $67 million appropriation does not match the high 
value that the coastal states provide to the nation. Considering the 
three states noted above, South Carolina's Ocean Economy in 2000 was 
$1.4 billion, New Hampshire's was over $500 million, and Virginia's was 
$3.89 billion.
5.  Does your organization support Governor Bobby Jindal's proposal to 
        build 24 barrier islands to protect 130 miles of Louisiana's 
        fragile marshlands and beaches?
    CSO does not have a position on Governor Jindal's proposal but 
continues to serve as a resource for the coastal state Governors when 
appropriate.
6.  Would you agree that it was a mistake to dump nearly 500,000 
        gallons of dispersant into the subsurface waters of the Gulf of 
        Mexico without really knowing the short-term or long-term 
        impacts of this action?
    CSO does not have a position on the use of dispersants; however, 
CSO recognizes that states and their citizens have concerns about the 
potential adverse effects of dispersants and recommends that Congress 
provide for the evaluation of the impacts of dispersants on natural 
resources in the water column, at depth, offshore, nearshore and along 
the coast and how it affects different life stages of finfish and 
shellfish.
7.  Does your organization support the Obama Administration's decision 
        to establish a 6-month moratorium on deepwater exploration in 
        the Gulf of Mexico? What is the rationale for this moratorium?
    CSO does not have a position on the moratorium and cannot speak to 
the Administration's rationale for the moratorium.
8.  You mention the importance of lessons learned and state that 
        federal and state laws in Alaska are based on the State's 
        experience with the Exxon Valdez. Did any other state implement 
        changes to their spill response programs based on the Exxon 
        Valdez incident?
    While states enacted oil spill legislation at different times, most 
of the West Coast states (Alaska, Washington, Oregon, and California) 
established significant oil spill laws and regulations in the early 
90s, based on the Exxon Valdez oil spill as well as other incidents. 
They now require oil spill contingency plans, drills, and Certificates 
of Financial Responsibility, among other things, and those requirements 
are directed at facilities, tank vessels, and non-tank vessels. The 
West Coast states also joined with the West Coast Canadian Province of 
British Columbia in 1989 to form the Pacific States/British Columbia 
Oil Spill Task Force, which provides a forum for them to coordinate oil 
spill policies and programs, and to work cooperatively on issues of 
regional concern.
    In California specifically, the Exxon Valdez inspired the 
California Legislature to enact legislation in 1990 called the Lempert-
Keene-Seastrand Oil Spill Prevention and Response Act (Act), which 
covers all aspects of marine oil spill prevention and response in 
California. In 1991, the California Department of Fish and Game, Office 
of Spill Prevention and Response (OSPR) was established with the 
primary authority in California to direct prevention, removal, 
abatement, response, containment, and cleanup efforts with regard to 
all aspects of any oil spill in marine waters of the state. The Act 
established a fee on oil imported into California to fund more than 200 
employees dedicated to the prevention of, response to, and recover from 
oil spills. OSPR is the most robust state level oil spill program in 
the nation. In addition, following the Cosco Busan oil spill in the San 
Francisco Bay in November 2007, a number of legislative bills and 
regulations were enacted to improve oil spill prevention and response 
in California. The resulting changes/additions included training of 
local government officials in oil spill response and management; grants 
to local governments to provide oil spill response equipment; fishery 
closure protocols; requirements for an Independent Drill Monitor to 
evaluate certain aspects of out-of-state oil spill drills, shortening 
of response times for on-water recovery; and adding 2 hour containment 
requirements for identified Oil Pollution Risk Areas in the San 
Francisco Bay and Los Angeles/Long Beach Harbors.
9.  You state that oil spill drills and exercises provide valuable 
        opportunities to identify gaps in response readiness and 
        capability. To your knowledge, how often do states conduct 
        these drills? If they were conducted in the Gulf of Mexico, did 
        any states find gaps in their response readiness and 
        capability?
    California Department of Fish and Game, Office of Spill Prevention 
and Response (OSPR) conducts over 100 drills a year that test the 
response readiness of oil spill contingency plan holders. The drills 
are planned ahead of time for maximum effect and test the plan holder's 
response structure and its ability to deploy response equipment. OSPR 
also conducts unannounced drills that put companies 'on the spot' and 
test their ability to make the proper notifications as well as deploy 
equipment within a set amount of time. OSPR also conducts annual drills 
that test oil spill response organizations (OSRO) on their capabilities 
of responding with equipment necessary to clean specific amounts of 
spilled product, within required time limits. The OSROs must pass these 
drills to operate in California. In addition, OSPR tests and evaluates 
the readiness and effectiveness of oil spill response strategies that 
protect designated environmentally sensitive resources along 
California's coast through our Sensitive Site Strategy Exercise 
Program. These defensive actions are tested by site-specific exercises, 
which involve the mobilization of an OSRO in a designated area and its 
deployment of protective and oil recovery equipment. As of the 2nd 
quarter of 2010, OSPR has evaluated 71 sensitive site strategies as 
contained within the California Area Contingency Plans.
    Coordination among federal, state, local agencies, environmental 
groups, and industry during oil spill emergency response is continually 
being refined and improved as a result of the frequent regional and 
statewide oil spill drills.
    CSO cannot respond to the question regarding gaps in the readiness 
of the Gulf of Mexico state, although it supports a thorough review of 
the federal, state, and industry responses to the Deepwater Horizon 
incident so that all agencies and states may glean important lessons.
10.  You stated that the CZMA and OPA provide adequate authorities for 
        planning and response, but the statutes are limited by capacity 
        and resources. What capacity and resources are necessary for 
        full implementation of these laws?
    The programs under each of these statutes can benefit from 
increased federal funding. For example, the Coastal Zone Management Act 
funding has been level for much of the last decade. Accounting for only 
inflationary increases, the state grants line would be $88 million this 
year; it remains at or around $66 million. With the emerging challenges 
of sea level rise and other climate change impacts, the capacity to 
respond both day-to-day and in the case of an emergency is eroded.
11.  Is it your view that we were victims of our own success, that 
        since we had not had an oil spill of this magnitude that 
        necessary research on dispersant use, boom technology and 
        usage, among other spill response research went unfunded?
    Since 2000, there have been no fewer than 6 accidents in the Gulf 
of Mexico which released oil into the natural environment. Decisions 
have been made to dedicate funds toward developing technology to drill 
in deeper and deeper areas. Unfortunately, funds toward research on 
dispersant use, boom technology and other spill response techniques 
were not priorities and did not keep pace.
    Notably, the California Coastal Commission has not found state-of-
the-art systems safety features and oil spill prevention and response 
measures to be effective in preventing oil spills or effectively 
containing and cleaning up oil spills to avoid adverse impacts to 
California's coastal zone resources. Experience in California has 
shown, and continues to show, that human error and mechanical failures 
can cause oil spills in spite of the most advanced system safety 
technologies and programs. Even small oil spills, if close to shore, 
can have devastating impacts on shoreline resources, even with rapid 
response using best state-of-the-art booms and skimmers. Despite its 
approval of 13 offshore OCS oil and gas development platforms, in each 
case the Coastal Commission explicitly found that the oil spill 
response measures did not meet the second test of Coastal Act Policy 
30232 which requires ``Effective containment and cleanup facilities and 
procedures shall be provided for accidental spills that do occur.''
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Fletcher, for 
explaining the state's role in oil spill contingency planning.
    Now it is my pleasure to introduce Mr. Barton. You can 
begin your testimony.

  STATEMENT OF MANLY BARTON, SUPERVISOR, DISTRICT 1, JACKSON 
      COUNTY BOARD OF SUPERVISORS, PASCAGOULA, MISSISSIPPI

    Mr. Barton. Thank you. I am Manly Barton. I am a District 1 
Supervisor at Jackson County, Mississippi, Board of 
Supervisors.
    First, I would like to thank the Committee members for 
allowing us to be here today and have input into this very 
important issue.
    Living on the Gulf Coast all my life, I have experienced 
many disasters, mainly hurricanes, and the response and 
recovery period for each of these has been different. It is 
difficult to look at our current situation today and not 
compare the current disaster response to that of Hurricane 
Katrina five years ago, and we are still dealing almost every 
week with issues that are still not resolved.
    Disaster response today is not the same as the response of 
20 years ago. Hurricane Katrina was a good test of the new 
National Incident Management System, or NIMS, administered by 
the Department of Homeland Security. This provider provides a 
framework for Federal, state, and local governments to work 
together in responding to major disasters. The process worked 
well after Hurricane Katrina, bringing the resources and the 
skilled people we needed to our county.
    In my opinion, the key to that process working as well as 
it did was communication from all the partners in the process, 
the Federal, state, and local. The local partners know their 
needs and should and do play an important role in that NIMS 
process.
    Because of our location on the Gulf Coast, we have had many 
disaster events. The planning that was in place at the time of 
the Deepwater Horizon event has provided an effective initial 
response. But as we move forward, these plans need to evolve to 
meet the changing needs of our local communities, the state, 
and the region. We need to continue to emphasize 
communications, and these are common issues between what I will 
call our normal natural disasters and this current Deepwater 
Horizon event.
    The framework of a NIMS's management at the unified command 
level appears to be working very well. Our current unified 
command overseas the response and recovery efforts in Alabama, 
Florida, and Mississippi. That is a large, very diverse area to 
effectively manage. We are talking about three different 
states, three different coastlines. We believe the event has 
localized enough to warrant the full development of the state 
area commands. Those area commands could then coordinate their 
respective response plans under the direction of the unified 
command, and this would give us a better, or this would better 
customize the response and recovery efforts to the particular 
needs of each state, and would improve the communications down 
to the local level.
    As far as the technical and financial resources that the 
Federal Government might help with, there were two specific 
things that came to mind.
    On the technical side, we need personnel on site at the 
local level that are trained in oil spill response and 
recovery. If not on site, at least made available to us on some 
as-needed basis. For example, as an elected official, I have 
people almost every day that are coming to me saying that they 
have the latest product that will solve all of our problems. 
They will stop the oil, clean up and protect our shoreline. And 
we are not--we just don't have the expertise to make those 
calls. We need somebody with some expertise that can help us 
through those evaluation processes.
    Second, most emergency operation centers on the Gulf Coast 
were designed and built many years ago under a very different 
disaster response model. Most would be considered functionally 
obsolete today.
    The NIMS' process requires a greater number of personnel 
involved in the response and recovery effort and the technology 
needed today is quite different. Hurricane Katrina and the 
Deepwater Horizon event have made us painfully aware that we 
need to upgrade our facilities to manage these emergencies 
successfully. We knew this after Katrina, and we certainly know 
this today.
    For communities still recovering from Katrina, several 
million dollars, perhaps as much as $8 million for a new or 
upgraded emergency operation center, is difficult to fund. This 
is something that would help our county, it would help many of 
our neighbors along the Gulf Coast still struggling to recover 
from Hurricane Katrina, responding to the current Deepwater 
Horizon event, and contending with yet another hurricane 
season. Thank you.
    [The prepared statement of Mr. Barton follows:]

          Statement of Manly Barton, Supervisor, District 1, 
      Jackson County Board of Supervisors, Pascagoula, Mississippi

Overview
    We have been asked to provide a local government's perspective on 
coastal State planning for offshore events. Three plans have been 
identified that should be in place for Mississippi: (1) An Area 
Contingency Plan (ACP) which includes coastal Mississippi and is 
implemented in conjunction with the National Contingency Plan (NCP) 
under the Oil Pollution Act of 1990; (2) an independent State 
contingency plan which is implemented in coordination with the relevant 
ACP and the NCP; and (3) a State plan in its coastal management plan 
required under the Coastal Zone Management Act of 1972.
    Dr. William W. Walker will address the Area Contingency Plan in his 
report. We can confirm specific action BP has taken at the request of 
Mississippi. BP has installed boom at critical habitats early on and 
has recently installed absorbent silt fencing at test sites. BP has 
further hired contractors to deploy collections vessels and to collect 
and dispose of oil material found on the barrier islands. Finally, 
Mississippi directed BP to address small incidents of oil material 
which managed to bypass the barrier islands.
    Being from a county on the Gulf Coast, we have been the dubious 
recipient of years of experience in multi-jurisdictional disaster 
events. Two issues are common in our responses to these events and are 
relevant to the success of our response to the current Deepwater 
Horizon event: (1) the ability to adjust plans to meet the changing 
needs of the event and (2) effective communication. To that end, the 
planning in place at the time of the event has provided an effective 
initial response. We find as we move forward that these plans need to 
evolve to meet the changing needs of our state and that communication 
needs to be emphasized.
    While we offer some observations on the effectiveness of 
Mississippi's ACP, we center our comments on the coordination of that 
planning effort through the NIMS framework. We thought our value to 
this hearing would be in our ability to compare the NIMS management of 
this event with the NIMS management during our Katrina response and 
recovery efforts:
Responses
1.  Adequacy of these planning efforts to respond to an oil spill of 
        this complexity and magnitude.
    The framework of NIMS management at the Unified Command level 
appears to be set-up satisfactorily. However, we believe the event has 
localized enough to warrant the full development and implementation of 
State Area Commands under the direction of the Unified Command. We 
discuss that in more detail in Response 2. Also, the lines of 
communication between the upper level and the lower level of the 
command structure could be improved. For instance, we are involved in 
several conference calls throughout the day with several different 
levels of command and various agencies. Especially early on, the 
information was inconsistent and, in some cases, inaccurate. For 
instance, boom deployment location and length differed from conference 
to conference.
    Also, this disconnect is magnified by the fact that the local level 
coastal facilities are not capable of handling something of the 
magnitude of the Deepwater Horizon event. Events like Deepwater Horizon 
and Katrina involve multiple local, State and federal agencies. It is 
imperative that each local facility has the necessary amount of 
personnel on site with the necessary skill sets to address the issues 
specific to that local area. However, many of the local emergency 
management agencies operate in outdated facilities which do not have 
sufficient capacity or infrastructure to house the required personnel 
(NIMS) during a long-term, large-scale event. Thus, communication is 
hindered because decisions are made elsewhere and local level 
responders have to rely on ``outside'' communications for updates and 
directives. As a corollary, today's agencies take advantage of the 
latest technology. Many of the local facilities were built decades ago 
and are not equipped with compatible support systems.
2.  The sufficiency of the coordination amongst these planning efforts 
        and between different levels of government.
    Again, communication--and coordination--is enhanced when those with 
decision-making authority and those who are experts in the relevant 
fields are onsite at the local level. Many general or broad decisions 
are made at the Unified Command level which necessitates some 
discretion at the lower level. As noted above, it would be most 
beneficial if personnel with training specific to the event (e.g., oil 
shoreline cleanup) were available to assist with the local planning and 
recovery efforts. Also, we have experienced an improvement in the 
transfer of some information. But, room for improvement still exists. 
First, a good system exists for submitting requests. But, getting 
clear, timely responses to some of those requests have been difficult. 
Second, the current unified command does not include a branch for local 
input and our local facilities do not accommodate a fully functional 
Emergency Support Functions (ESF) set-up.
    Irrespective of the current system, it would be more effective at 
this point if State Area Commands were fully developed. Our current 
Unified Command oversees the response and recovery efforts in Florida, 
Alabama and Mississippi. Today, it is too spread out to effectively 
manage the overall recovery along those three states' coastlines. We 
recommend that each of the three states have fully implemented Area 
Commands that can coordinate its respective response plan under the 
direction of the Unified Command. This will better customize the 
response and recovery efforts to the particular needs of each state and 
will improve communications down to the local level.
    As to the coordination of funding, the current structure is better 
than the structure in Katrina. The current decision-making funding 
process has fewer levels of hierarchy. The FEMA Public Assistance (PA) 
program necessarily involves the State as the Grantee and the local 
government as the Sub-Grantee. The PA program also involves reviews by 
State analysts and the Office of Inspector General. The State plays a 
significant role in the current event (primarily through MDEQ and MDMR) 
and other agencies are heavily involved. However, we observe more 
efficient decision-making and a more efficient funding process in the 
current event than in the Katrina event.
3.  Additional technical or financial resources that might be provided 
        by the Federal Government to assist coastal States for oil 
        spill planning, logistics, response, and recovery.
    Two resources discussed above would assist us in the oil spill 
planning, logistics, response and recovery: (1) personnel on-site at 
the local level who are trained in oil spill response and recovery; and 
(2) modern emergency operations centers built to meet FEMA 361 
construction standards which can handle today's technology and 
personnel required to successfully and efficiently manage long-term, 
large-scale events like hurricanes and oil spills.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Barton, for 
informing us about the oil spill planning efforts in Jackson 
County.
    Next, it is my pleasure to introduce Mr. Menashes.

  STATEMENT OF MATTHEW MENASHES, EXECUTIVE DIRECTOR, NATIONAL 
    ESTUARINE RESEARCH RESERVE ASSOCIATION, WASHINGTON, D.C.

    Mr. Menashes. Thank you, Chairwoman Bordallo, and members 
of the Subcommittee for the opportunity to testify on behalf of 
the state agencies and academic institutions that operate the 
nation's 27 national estuarine research reserves.
    I am Matt Menashes, Executive Director of the National 
Estuarine Research Reserve Association. NERRA is dedicated to 
the protection, understanding, and science-based management of 
our nation's estuaries and coasts.
    As you know, the Research Reserve System was authorized in 
1972 under the Coastal Zone Management Act. The program is a 
unique partnership between NOAA and state agencies and 
universities to protect lands and waters for long-term research 
and education purposes. As part of the CZMA, reserves play a 
strong role in providing the science needed to effectively 
manage our estuaries.
    The five reserves along the Gulf of Mexico make up nearly 
45 percent of the total acreage of the reserve system. With 
such a significant amount of the system located around the 
Gulf, we are concerned about the long-term impacts of this 
spill on natural resources in the reserves and beyond. We have 
recently seen oil impacts to the Grand Bay Reserve in 
Mississippi, which is in Mr. Barton's district, and we hope we 
can avoid damages to the other reserves along the Gulf.
    My comments today are intended to highlight what our people 
are experiencing and how those experiences can inform planning 
efforts. First, let me talk about preparedness planning.
    We have identified two key areas where we believe attention 
needs to be focused to ensure we are prepared in the future. 
First, we need to prioritize training for responding to oil 
spills higher than we have. Our reserve managers and staff have 
struggled to figure out HAZMAT training requirements and the 
damage assessment process. Agencies need to ensure that 
sufficient personnel are trained in HAZMAT procedures to 
expedite booming and recovery operations, and NOAA needs to 
invest more effort in resources and to providing training on 
NRDA sampling prior to a spill. We have the infrastructure to 
help our partners develop these capacities.
    Second, preparedness requires continual improvement in 
governmental coordination. Our reserves must be integrated into 
area contingency plans and county emergency operation commands 
should know where our reserves are. There must be incentives 
for ACPs and EOCs to integrate coastal protected areas into 
their planning.
    In the area of contingency planning, we know that the cost 
of restoring marshes and mangroves is exorbitant. The Coast 
Guard needs the best information to develop contingencies that 
protect these critical habitats. We need to ensure high 
resolution special data about critical reserve habitats is 
provided to the Coast Guard, and that boom deployment 
strategies reflect that data. This will reduce costs and 
increase restoration success rates by minimizing damage to 
critical resources.
    Because reserves are managed by state institutions, we 
don't have the ability to mobilize personnel of the Federal 
Government like our colleagues in marine sanctuaries and 
wildlife refuges. NOAA should work with the states to identify 
ways to deploy adequate personnel to reserves in times of 
emergency.
    I would also like to point out that the CZMA requires that 
NOAA give priority consideration to research that uses the 
reserves. We hope to work with NOAA to ensure that the agency's 
post-spill research plans use the reserves for baseline and 
applied research.
    With regard to damage assessment planning, we are concerned 
that personnel limits and a lack of funding will have a 
negative effect on our ability to fully assess the damages to 
reserve resources. This will affect NOAA's and the state's 
ability to recoup the total value of damages for those 
resources.
    It is also our understanding that the NRDA biological 
monitoring protocols were not sufficient for this spill, and 
that there were duplicative Federal reporting requirements. 
NOAA and the states need to collaborate ahead of time to 
establish effective biological monitoring protocols, and the 
Federal agencies need to develop one database for reporting. We 
also need to do a better job of integrating existing data sets 
into the damage assessment process.
    Our experience to this point shows that our use of baseline 
data are not being used. And in consideration of the scale of 
this event, it incumbent upon Federal programs to reconsider 
their long-term monitoring priorities. Congress should require 
the reserve system, and the Integrated Ocean Observing System 
for that matter, to consider adding hydrocarbon testing to 
their current monitoring protocols.
    On restoration planning, we believe that the Gulf of Mexico 
Alliance could be the coordinating body for state restoration 
efforts in the Gulf. The alliance has the established networks 
and relationships and the experience to ensure interstate 
coordination is carried out effectively.
    On the Federal side, NOAA should align its Gulf of Mexico 
regional efforts to recover from this spill. NOAA needs 
dedicated staff on the ground in the region bringing together 
their assets, like the reserves, the sanctuaries' Sea Grant 
Coastal Programs more to create efficiencies and avoid 
duplication.
    I would also like to reiterate Kristen Fletcher's point. 
CZMA has been overdue for reauthorization for 10 years. We must 
reauthorize the CZMA and improve the reserve system. We will 
work with the Subcommittee to explore areas to improve the 
legislation.
    Chairwoman Bordallo, we wish to express our condolences to 
the families of the Deepwater Horizon workers who lost their 
lives, and acknowledge that the livelihoods and quality of life 
of many in the Gulf region are in jeopardy. Our efforts to help 
restore the environment will draw inspiration from the strength 
of the families who lost loved ones and the resiliency of the 
people of the Gulf region.
    I will be happy to answer any questions you have.
    [The prepared statement of Mr. Menashes follows:]

         Statement of Matthew E. Menashes, Executive Director, 
            National Estuarine Research Reserve Association

    Thank you Chairwoman Bordallo, Ranking Member Brown, and Members of 
the Subcommittee for the opportunity to testify on behalf of the state 
agencies and academic institutions that operate the nation's 27 
National Estuarine Research Reserves (reserves) about planning 
standards for offshore energy development in the context of the oil 
spill disaster in the Gulf of Mexico.
    I am Matt Menashes, Executive Director of the National Estuarine 
Research Reserve Association (NERRA). Our association was founded in 
1987 by the state and academic institutions that operate the reserves. 
NERRA is dedicated to the protection, understanding, and science-based 
management of our nation's estuaries and coasts.
    I appreciate the opportunity to testify, and on behalf of NERRA's 
members, want to express our appreciation to the committee for focusing 
this hearing on planning issues. While we know that Americans right now 
really just want someone to stop the oil spill, the reality is that 
what was needed, and what is still needed, is to have effective plans 
in place before disasters like this happen. Planning is what we do in 
order to reduce risks in the first place. Planning is what we need to 
ensure effective response when something happens. Effective planning is 
an obligation we owe to our communities so we can recover quickly when 
disaster strikes. Planning is absolutely required in order for us to 
execute our responsibility, and the trust we hold, to protect and 
restore the environment.
    As you know, the National Estuarine Research Reserve System 
(reserve system) was authorized in 1972 under the Coastal Zone 
Management Act (CZMA). The program is a unique federal-state 
partnership which brings the National Oceanic and Atmospheric 
Administration (NOAA) together with state agencies and universities to 
protect lands and waters for long-term research and education purposes. 
NOAA and reserve staffers collaborate to provide education, training, 
and stewardship programs that ensure the protection of these wonderful 
places while advancing our collective understanding of how estuaries 
function. As part of the CZMA, the reserves play a strong role in 
providing the science needed by coastal managers at the local, state, 
and federal levels to effectively manage our estuarine and coastal 
resources.
    The five reserves in the Gulf of Mexico make up nearly 45 percent 
of the total acreage of the reserve system. The Rookery Bay reserve in 
Florida, designated in 1978, has over 110,000 acres. The Apalachicola 
reserve in Florida, designated in 1979, has over 246,000 acres. The 
Weeks Bay reserve in Alabama, designated in 1986, has just over 6500 
acres. The Grand Bay reserve in Mississippi, designated in 1999, has 
over 18,400 acres, and the newest reserve, Mission-Aransas in Texas, 
designated in 2006, has over 186,000 acres. With such a significant 
amount of the total system located in the Gulf of Mexico, we are 
obviously concerned about the long-term impacts of this spill on 
natural resources in the reserves and beyond.
    Perhaps the best way to put our concerns into context is this; 
staffs at our two Florida Gulf coast reserves have been working for 
over 30 years to improve the condition of their estuaries. They conduct 
research, educate citizens, and provide science-based information to 
decision-makers at all levels of government. They work on some of the 
most pressing long-term environmental questions in the Gulf region, 
from freshwater requirements for Gulf coast oysters to restoration of 
the Everglades. In just over 60 days, though, 30 years of effort could 
be lost from one short-term event with highly destructive, long-term 
consequences.
    My comments today are intended to highlight what our people on the 
ground in the Gulf of Mexico region are experiencing and how those 
experiences can inform planning efforts so that we are more efficient, 
and respond faster in a coordinated way, in response to future events.
    I want to assure the committee that our members will continue to 
work with their federal, state, and local partners to ensure that the 
research we conduct, and the training and education we provide, are 
integrated into preparedness and contingency plans at all levels of 
government and across the country. I also want to let you know that we 
recognize that what is happening in the Gulf now will most likely 
change our program's emphasis in the Gulf of Mexico for years to come. 
We will conduct careful assessments, we will secure the necessary 
resources, we will do the research, and we will restore the reserves 
while helping others in region restore the Gulf.
    Our recommendations are included in this testimony and are 
summarized at the end.
Preparedness Planning
    Nobody was prepared for an incident of this magnitude, including 
our members and their federal partners. While there were gaps in 
planning and issues of coordination have arisen and will continue to 
arise, our members are extremely grateful for the support they have 
received from federal partners at NOAA, the U.S. Coast Guard (USCG), 
and the Department of the Interior in particular. In a time of crisis, 
the level of professionalism that has been shown time and time again by 
our federal partners is testimony to efforts undertaken at all levels 
of government to improve coordination and efficiency. In particular, 
our members in the Gulf and I want to commend our partners at NOAA's 
Estuarine Reserves Division for their efforts to coordinate the 
reserves' response to the spill.
    We have identified two key areas where we believe attention needs 
to be focused to ensure adequate preparedness planning is in place. 
First, it is clear that we need to prioritize outreach and training for 
responding to oil spills higher than we have. The severity of oil 
spills in the coastal and marine environment requires us to rethink our 
training priorities. This is particularly clear when weighing the 
severity of spills against the short time periods during which oil 
spills cause damage. The risks are too great not to prioritize oil 
spill training.
    A couple of recent examples speak to the reserves' abilities to 
facilitate training and outreach. The Rookery Bay reserve in Florida 
held a workshop with the USCG for over 70 organizations and agencies 
working on the spill to facilitate increased coordination and training. 
The Rookery Bay staff was able to pull the workshop together within 48 
hours because of their connections to networks of coastal resource 
managers in the state. In addition, our Weeks Bay, Alabama, and Grand 
Bay, Mississippi, reserves collaborated with the Sea Grant institutions 
in the region on outreach workshops for local communities. Our people 
know the players and their communities, and can assist agencies at all 
levels in training and outreach.
    We need to think about opportunities for NOAA and the USCG to 
provide training to local and state level officials, including senior 
level officials, on larger scale events like this one. There are 
planning lessons from Department of Defense-style ``all hands'' drills 
that should become part of the way we do business in coastal 
management, particularly as we look more and more at the ocean and our 
coastal areas as ways to meet our energy needs.
    Our experiences during this crisis highlight several areas where we 
believe better coordination between federal agencies and our staff for 
training can have a significant impact in the short-term:
        1.  Hazardous materials (hazmat) and hazardous waste operations 
        (hazwoper) training. It is clear that the availability of 
        trained hazmat and hazwoper workers has been an issue facing 
        incident commanders. While we recognize that all spill 
        responses are unique, some standardization will allow workers 
        to be better prepared. The states have been struggling to 
        figure out hazmat training requirements. It is my understanding 
        that there is a lot of misinformation about the requirements 
        for who needs training and for how long it has to be. It is 
        also my understanding that this information is changing on a 
        week-to-week or sometimes daily basis. Congress and the federal 
        agencies need to ensure that sufficient personnel are trained--
        or available to provide training--on short notice in order to 
        quickly ramp-up booming and oil recovery operations. We have 
        the infrastructure to help our partners develop this capacity. 
        From classrooms and auditoriums to other site-based 
        infrastructure like storage areas and hazmat labs, many of our 
        facilities make ideal locations for this type of training. 
        Technical staff at the reserves already provide training 
        programs for coastal managers, local decision-makers, and the 
        public on a regular basis and can easily gear up for a focus on 
        hazardous materials. Strong networks of potential clients for 
        such training and excellent outreach capabilities exist at our 
        reserves. We believe Congress could require that NOAA and other 
        federal agencies take advantage of the investments already made 
        in the reserve system and quickly generate new capacity for 
        such training.
        2.  Natural resource damage assessment (NRDA) training. Nothing 
        delays governmental response more than the confusion that 
        results from a steep learning curve. As we have seen with this 
        spill, reserve staffers and agency managers were temporarily 
        hamstrung while they learned how the NRDA process worked. In 
        addition to basic, recurring training on how NRDA works, NOAA 
        needs to invest more effort and resources into providing 
        training on NRDA sampling before a spill occurs. With limited 
        resources and personnel, it is more efficient for such training 
        to be done before a spill occurs, so that in the thick of a 
        disaster, staff can be doing the assessments rather than 
        learning how to do the assessments. Standardization of basic 
        NRDA sampling protocols would allow sampling to begin 
        immediately after an incident. Each day of delay in assessing 
        resources puts information useful to the restitution process at 
        risk. I do want to point out that an excellent web-based 
        seminar, given each day, was developed by NOAA to guide 
        sampling teams through data entry formats, photo and global 
        positioning system (GPS) documentation. Due to the rapidity of 
        the response in the early days, however, some of our first 
        sampling crews were not able to participate in this training 
        prior to sampling.
        3. Incident Command System (ICS) training. Many reserve 
        managers and staff have been deployed to the incident command 
        center. This training would be extremely valuable to explain 
        the incident command process and the role of each team member. 
        There is a free online course from FEMA that should be 
        recommended to all natural resource managers.
        4. Shoreline Cleanup and Assessment Team (SCAT) protocol 
        training. While some of our reserves and states are now trained 
        for shoreline cleanup and assessment, we recognize that reserve 
        staff and other natural resource managers should be trained in 
        these protocols before a spill occurs.
    Second, we believe preparedness requires continual improvements in 
coordination between all levels of government. The people who work in 
the reserve system understand the importance of maintaining 
relationships with different levels and agencies of government. Our 
unique model, the federal-state partnership with NOAA, requires us to 
coordinate with the federal government on an almost daily basis. Our 
role in our communities is to support local decision-making with 
scientific information, and we work with our county government and town 
councils regularly. We cannot, however, claim that we maintain 
relationships with every federal and local official involved in 
preparedness planning. For instance, Area Contingency Plans (ACPs) are 
developed by the USCG in coordination with county-level Emergency 
Operations Commands (EOCs). We are not confident that each of our 
reserves is integrated into ACPs or known to county EOCs. We do not 
believe that county level EOCs regularly engage with the resource 
managers in coastal areas. There must be some type of incentive, or 
mandate, for ACPs and EOCs to integrate coastal protected areas into 
their planning efforts. While some of our reserves were involved to 
varying degrees with ACP efforts, it has become obvious that many local 
entities were not. This causes some local efforts to be fragmented.
    Training and inter-governmental coordination are just two areas for 
Congress to examine as we look to improve our preparedness planning. We 
believe these are areas where small investments or minor policy changes 
can lead to significant change in a short time frame.
Contingency Planning
    What we have learned from this event is that even the best 
processes and planning can sometimes marginalize good information. 
While we fully support the centralized response planning model, we 
recognize that the model has its limits. Plugging our people, our 
program, and our data into this model can be difficult.
    As an example we do not believe that our principal federal partner, 
NOAA, is recognized for their expertise in some state-level contingency 
plans. The reserves are a unique natural resource. While these sites 
are owned and operated by the states and sometimes local governments in 
a networked model, NOAA has significant natural resource trust 
authority for reserve resources. If state plans do not account for 
NOAA's role in the reserves, and if contingency plans for protecting 
reserve resources are not well established, we believe both the federal 
and state partners will be limited in successfully preventing injury to 
reserve resources or in negotiating effective settlements with 
responsible parties.
    Contingency planning requires the ability to anticipate what could 
happen and develop plans for multiple scenarios. It also requires the 
ability to adapt to changing conditions on the ground. Primarily, 
however, contingency planning requires excellent information. We now 
recognize that reserve management and staff have not been sufficiently 
plugged in to the USCG's ACPs.
    As an example, reserves now generally have high resolution spatial 
data about critical habitats that is a significant advancement over the 
data we had just five or 10 years ago. We need to ensure this 
information is provided to the USCG and that boom deployment strategies 
reflect it. As the USCG makes decisions about where to deploy boom, 
their highest priority must be on protecting fragile coastal wetlands 
including marshes and mangroves. We don't think anyone will argue that 
the cost of restoring marshes and mangroves is exorbitant, and that 
such restoration is not often highly effective. By using booms to push 
oil to less fragile areas, incident commanders can more effectively 
deploy a limited number of skimmers and help ensure oil does not get 
into sensitive areas in the first place. Having the best scientific 
information available for contingency plans will reduce costs and 
increase success rates for restoration.
    NOAA and the state agencies that manage the reserves need to ensure 
that the USCG regularly updates boom deployment strategies in ACPs 
based on the latest scientific information about our reserve resources, 
and also do so in consultation with local communities. We know, for 
example, that our reserves in Florida were actively involved in 
creating ACPs for the resources they manage. Staff identified and 
mapped boom placement locations, sensitive resources, and oil recovery 
locations. We cannot say with certainty, however, that all 27 reserves 
have had this level of involvement in ACP development. We encourage the 
USCG to be clearer with federal and state partners about the process 
for updating ACPs. We encourage these agencies to consider an annual 
updating process that reaches out to coastal resource managers in the 
reserve system and other programs. We also request that the USCG engage 
the right people in these tasks by working with existing networks of 
coastal managers and marine protected area managers to deliver 
information in a timely fashion. We believe there is an opportunity 
through the reserve managing agencies and NOAA to regularly update 
incident command centers regarding reserve resources to ensure that 
effective planning is in place before a spill happens. We recommend 
that NOAA develop guidelines for reserve managing agencies to 
coordinate with the USCG. We also recommend that NOAA and the USCG 
report to Congress their progress on this issue.
    We believe county-level EOCs must be incentivized to engage with 
the coastal management community on contingency planning. We don't 
believe there is currently an effective mechanism to ensure this 
happens. Oftentimes, EOCs do not have connections with the marine 
protected area and coastal management networks. We believe our reserve 
staff can assist county EOCs in building these relationships.
    Earlier I noted that contingency planning requires the ability to 
adapt to changing conditions. While we do have some concerns about 
improved coordination with the USCG, we have found that they are 
willing to make adjustments based on new information we develop and 
provide. We would like to commend them on their flexibility during this 
difficult time.
    For short-term, highly destructive events, whether an oil spill or 
a hurricane, we need federal policy to strengthen our ability to react 
and protect the resources we have been entrusted with. As research 
reserves, we also need the ability to study and understand what is 
happening to our resources so that we can inform future scenarios and 
planning. Our capacity is highly limited by the lack of immediate 
access to contingency funds and staff. NOAA currently does not have the 
ability to provide significant resources to reserves to undertake 
contingency efforts for staffing, response, research, or restoration. 
We believe that Congress should consider establishing a method for NOAA 
to provide contingency funds and staffing to its state agency partners 
who manage the reserves. Several examples are described below.
    With regards to this spill, we are finding that some funding for 
contingencies is available but that some of our financial needs are not 
being met. While our reserves are getting what they need to conduct 
NRDA hydrocarbon sampling, we believe there are funding gaps with 
regard to biological inventory needs. NERRA has advocated for an 
additional $2.5 million for wildlife assessments at the reserves. To 
date we have not received this funding. We recognize that the federal 
government or the states will ultimately be reimbursed by the 
responsible party, yet without dedicated funding right now to conduct 
the work we cannot even get these studies underway. This is 
particularly exacerbated by state budget crises. We are concerned that 
the damages assessed on the reserves will be undervalued if we do not 
have the funding necessary to conduct the additional survey work 
needed.
    In addition, because these sites are managed by state governments, 
or in some cases by state universities, we don't have the ability to 
mobilize the personnel resources of the federal government like our 
colleagues in the National Marine Sanctuaries or National Wildlife 
Refuges. Reserves are among the few site-based programs within NOAA's 
portfolio. The agency should work with states to deploy adequate 
resources to these special places in time of emergency. We have no real 
option for bringing in colleagues with experience in oil spills from 
reserves in other states to assist in our efforts. There is also no 
current option for NOAA to assign people to our reserves to assist 
during events like this. We believe Congress should require NOAA to 
develop the interagency personnel agreements that would allow the 
agency to facilitate additional staffing for reserves facing large-
scale events. We need this type of procedure in place as part of our 
contingency planning efforts.
    Additionally, there are currently no resources available to our 
reserves for research on the oil spill, nor when significant research 
opportunities present themselves from other anomalous events. We 
believe this is a significant problem for a network of sites 
established specifically for research purposes. To give you an example, 
after Hurricane Andrew in 1993, we were presented with an excellent 
research opportunity to understand the impact of the storm on 
mangroves. Yet we had an extremely difficult time accessing funding 
following the event. Many research opportunities were lost that could 
have advanced contingency planning for future storm events. While BP 
has provided millions of dollars to academic research institutions in 
the Gulf, and will provide more, there is no current funding for 
research reserve staff to access for monitoring and impact research. I 
would also like to point out that the CZMA requires that NOAA, in 
conducting or supporting estuarine research, give priority 
consideration to research that uses the reserve system. Even if no 
direct funding is available to reserve staff to conduct research, we 
believe the CZMA requires NOAA to prioritize the use of the five Gulf 
coast reserves for research on this spill. We hope to work with NOAA to 
ensure that the agency's post-spill research plan gives that priority 
consideration to the reserves.
    We believe there needs to be a way for NOAA to get resources to the 
reserves for the important contingency and research work needed in the 
face of dramatic events like a spill or a storm. We urge Congress to 
consider establishing a contingency funding mechanism for the reserve 
system.
Damage Assessment Planning
    While the natural resource damage assessment process appears to be 
advancing, there are some areas where we have concerns. Our concerns 
should be considered in the context that this spill is, hopefully, 
anomalous.
    Twenty years of NRDA experience following the Exxon Valdez oil 
spill has provided the states and NOAA with many of the tools to 
effectively assess damages to marine and coastal resources. We support 
a process of continual, iterative improvement so that we can generate 
excellent information while finding program efficiencies. Right now we 
do not have the luxury to change course in mid-spill. But there are 
some initial lessons that we believe could help improve the process 
later.
    We must recognize that NOAA does not have enough personnel to 
effectively manage a spill of this size. This is not a criticism of 
NOAA; it is just the reality of federal spending priorities developed 
over many years. Our people report that they have had little 
interaction with NOAA's office that is responsible for damage 
assessments. We are concerned that this will have a negative effect in 
the future on NOAA's and the states' ability to recoup damages from the 
responsible party for all reserve resources. Reserves are NOAA trust 
resources and the agency has a responsibility to the states to ensure 
that the settlement from this spill reflects the full extent of damages 
to these resources. We believe NOAA should be prioritizing reserves for 
additional attention and study.
    We also must recognize that sampling is expensive. While it is 
convenient to think that the responsible party will pay for sampling 
and other assessments, the reality is that we cannot recover the lost 
time, the program delays, and other direct and indirect costs 
associated with shifting labor away from our principal activities to 
NRDA sampling. These are costs we will never recover. Federal policy 
needs to address the costs incurred by agencies during catastrophic 
events as part of the restitution process.
    Sampling is also highly complex. NRDA protocols were established 
following the Exxon Valdez spill, but it is our understanding that they 
have not been thoroughly updated in about 20 years. The protocols that 
were originally provided for sampling were generally relevant to the 
biogeography of the Gulf of Mexico, but some were not. For instance, 
biological monitoring protocols were not sufficient for this spill. I 
have been told that there were no approved protocols beyond benthic 
invertebrate and tissue sampling. NOAA and the states need to 
collaborate ahead of time to establish effective biological monitoring 
protocols. We are concerned that the efforts now underway to refine 
biological monitoring and sampling protocols were not done before the 
spill happened; this should take place as part of the preparedness 
process.
    Conducting proper assessments requires good information on what 
protocols to use, quick access to trained people and equipment, and 
most importantly sufficient laboratory capacity. Immediately after the 
spill, reserve managers and staff were asked whether they could quickly 
begin NRDA sampling. At that time our people had no sampling kits, no 
training, and were expecting oil to wash ashore within hours. We did 
the best we could in these conditions. It is my understanding that 
sampling protocols, though available on the web, were password 
protected. Sampling protocols made their way into our people's hands 
via email chains. As protocols changed, our people were left guessing 
whether they had the latest information on how to do the work. If our 
goal is to get people up and sampling in short time frames, sampling 
protocols must be made widely available so that state and county 
personnel can get the right information in a timely manner.
    The lack of access to equipment also likely delayed sampling by a 
few days. Luckily, weather patterns minimized oil washing ashore, 
granting us sufficient time to get sampling underway.
    Another concern is that some of the early sampling we conducted was 
lost due to the lack of analysis capacity at laboratories. We know that 
one of our reserves has had to resample some areas due to this problem. 
The laboratory backlog has apparently eased, but plans should have been 
in place to prepare laboratories much sooner. A network of third-party 
labs that can be immediately engaged for damage assessment analyses 
should be established.
    Database management and quality assurance protocols should be 
developed and should be in place on the first day of a spill. These 
protocols should be designed and properly staffed for rapid 
implementation and deployment. While the sampling is happening and is 
now highly coordinated, we believe there are duplicative requirements 
being placed on reserve staff by having to report monitoring and 
sampling data to two different federal agencies through two different 
reporting systems. The Environmental Protection Agency (EPA) and NOAA 
have different responsibilities for damages arising from the spill and 
personnel are being asked to provide data through EPA's SCRIBE site and 
to a NOAA FTP site. We should do our best to create efficiencies and 
eliminate this additional burden on them, especially given the already 
long hours that are being worked in response to the spill. We are 
concerned that the agencies had coordinated on one data network and 
that this might result in some data being in one location and not the 
other. I have received recent information, though, that these issues 
are being resolved.
    We also need to do a better job of integrating existing data sets 
into the damage assessment process. In a time of limited resources, 
existing data, particularly data that is acquired in a consistent 
manner over long-time periods, can and should be used in NRDA. Our 
experience with the NRDA process to this point shows that years of 
baseline data we have developed are not being used. Whether it is data 
collected by the reserve system's long-term monitoring program or the 
detailed spatial data we have collected, these data needs to be 
integrated into damage assessments. This will require NOAA and the 
states to develop a plan for using and sharing these data. It will also 
require NOAA to update their ESI maps on a more frequent basis with 
data collected by the reserves and others in the coastal management 
community.
    Finally, in consideration of the scale of this event, it is 
incumbent upon programs to reconsider their long-term monitoring 
priorities. While it may be hard for us to currently envision 
hydrocarbon testing as a key protocol for the reserve system's long-
term monitoring program, or for the Integrated Ocean Observing System 
(IOOS) network for that matter, we need to consider this as an option. 
Congress should require both of these programs to consider adding 
hydrocarbon testing to their current monitoring programs. By 
establishing long-term trend data for hydrocarbons in the coastal and 
marine environment through the reserve system and IOOS, we can help 
reduce the burden on hydrocarbon sampling in the future. NOAA should be 
required to weigh the costs of these additional sampling regimes 
against the risks associated with major spills and the assessment 
process. At minimum, however, we need to be better prepared to conduct 
hydrocarbon testing in the event of a spill regardless of its 
magnitude.
Restoration Planning
    Restoring the Gulf will happen, but it will take many years. As we 
prepare for what many are calling the largest environmental restoration 
effort in history, we believe there are actions that can be taken now 
to improve the ability of states and the federal government to ensure 
restoration happens in a coordinated and efficient manner.
    NOAA and the administration have spent significant time over the 
past 18 months focused on regional ocean governance. We support this 
effort and believe the Gulf of Mexico Alliance could be the 
coordinating body for efforts in the Gulf. The alliance has the 
established networks and relationships, and the experience to ensure 
this process is carried out effectively. It will also provide the best 
opportunity to highlight the value of regional ocean and coastal 
governance, a direction that we support.
    In support of regional governance, we now believe that NOAA should 
realign its efforts for Gulf of Mexico regional issues with a primary 
emphasis on spill recovery. We believe the agency needs a dedicated 
staff, on the ground in the region, focused on bringing together NOAA 
resources for the long-term recovery of the Gulf. This group needs to 
bring together NOAA assets like the reserves, the National Marine 
Sanctuaries, Sea Grant institutions, state coastal management programs, 
the Coastal Services Center, the Restoration Center, the National 
Weather Service, and more and focus on finding efficiencies and 
avoiding duplication. They should be given direct access to the NOAA 
administrator or a senior designee, have significant budgetary 
authority, and a clear mandate to leverage all of NOAA's resources for 
restoring the Gulf. The team should be focusing NOAA resources on 
coordinated education and training, research and monitoring, and direct 
restoration activities. It is our understanding that NOAA is currently 
coordinating regional oil spill activities through a regional fisheries 
service official. This will not work for Gulf recovery. Fisheries 
service staffers have full-time, highly visible jobs to begin with. We 
cannot expect them to take on this type of additional task. There needs 
to be a dedicated leader with a dedicated regional staff.
    We also believe that the federal interagency Estuary Restoration 
Council, currently led by NOAA, should be charged with coordinating the 
interagency restoration activities that will occur in the Gulf. The 
council, established under the Estuary Restoration Act, can be a model 
for interagency collaboration and coordination on restoration efforts.
    We need to ensure that all habitat restoration projects are planned 
to take into account the need to advance restoration science. 
Restoration plans must include community input and outreach, 
incorporate long-term monitoring, and many of the other principles 
identified in the report Principles of Estuarine Habitat Restoration by 
Restore America's Estuaries and the Coastal and Estuarine Research 
Federation. Our research reserves can provide reference sites, long-
term monitoring protocols, and training for community leaders on 
restoration activities.
Coastal Zone Management Act
    The National Estuarine Research Reserve System is authorized under 
Section 315 of the CZMA, which as you know, has been overdue for 
reauthorization since 2000. NERRA believes this spill underscores the 
importance of reauthorizing the Coastal Zone Management Act and 
improving the reserve system. We will work with the Subcommittee to 
explore areas to improve the legislation so that in the event of 
another catastrophe, the reserve system is prepared.
Summary of our Recommendations
         1.  All levels of government need to place higher priority on 
        oil spill training. Our reserves can assist in providing 
        training through the Coastal Training Program and also provide 
        infrastructure for other trainers.
         2.  Federal policy should provide incentives for, or mandate, 
        ACPs and EOCs to integrate coastal protected areas into their 
        planning efforts.
         3.  NOAA should collaborate with the reserve managing 
        agencies/universities to develop guidelines for coordination 
        with the USCG. NOAA and the USCG report to Congress their 
        progress on this issue.
         4.  Congress should consider establishing a method for NOAA to 
        provide contingency funds and staffing to its state agency 
        partners who manage the reserves. Congress should require NOAA 
        to develop the interagency personnel agreements that would 
        allow the agency to facilitate additional staffing for reserves 
        facing events like this.
         5.  NOAA should prioritize reserves for additional attention 
        and study during and after oil spills by NOAA scientists and 
        other researchers.
         6.  Federal policy needs to address the costs incurred by 
        agencies during catastrophic events as part of the restitution 
        process.
         7.  NOAA and EPA should coordinate and use one data network 
        for NRDA sampling.
         8.  NOAA and the states must develop a plan for using and 
        sharing reserve baseline data prior to spill and during the 
        NRDA process. This will require NOAA to update ESI maps on a 
        more frequent basis with data collected by the reserves and 
        others in the coastal management community.
         9.  NOAA should be required to weigh the costs of additional 
        hydrocarbon sampling for existing long-term monitoring programs 
        against the risks associated with major spills and the costs of 
        the assessment process. At a minimum, we need to be better 
        prepared to conduct hydrocarbon testing in the event of a spill 
        regardless of its magnitude.
        10.  The Gulf of Mexico Alliance should play an active role for 
        Gulf restoration by coordinating state and local activities and 
        working with federal partners.
        11.  NOAA should develop a regional office for the Gulf of 
        Mexico charged with coordinating the agency's role and assets, 
        including the reserves, in the oil spill recovery and 
        restoration process.
        12.  The interagency Estuary Restoration Council should be 
        given a mandate to improve federal interagency coordination on 
        Gulf oil spill restoration.
        13.  Restoration plans must include community input and 
        outreach, incorporate long-term monitoring, and many of the 
        other principles identified in the report Principles of 
        Estuarine Habitat Restoration by Restore America's Estuaries 
        and the Coastal and Estuarine Research Federation.
        14.  The CZMA must be reauthorized. NERRA will work with the 
        Subcommittee to ensure that the reserve system is strengthened, 
        particularly in the area of preparedness and planning related 
        to large-scale incidents like this.
    Finally, Chairwoman Bordallo, Ranking Member Brown, and Members of 
the Subcommittee, on behalf of the more than 400 people who work at the 
National Estuarine Research Reserves and our many not-for-profit 
partners, we wish to express our condolences to the families of the 
Deepwater Horizon workers who lost their lives in this incident. We 
also want to recognize the impacts to the people of the Gulf region 
whose livelihoods and quality of life are in jeopardy. Our efforts to 
help restore the environment will draw inspiration from the strength of 
the families who lost loved ones and the resiliency of the people of 
the Gulf region. I will be happy to answer any questions you may have.
                                 ______
                                 

  Response to questions submitted for the record by Matthew Menashes, 
  Executive Director, National Estuarine Research Reserve Association 
                                (NERRA)

Questions from Chairwoman, Congresswoman Madeline Z. Bordallo (D-GU)
1.  In addition to including reserve managers in an annual updating 
        process of the area contingency plans, what else could be 
        included in NOAA guidelines to ensure that reserve managers are 
        part of the planning process?
    The National Oceanic and Atmospheric Administration (NOAA) should 
develop spill response guidelines for the National Estuarine Research 
Reserve System (reserve system) that:
        <bullet>  Provides an understanding of the role of both the 
        state and NOAA in spill response at a reserve, and outlining 
        how the state and NOAA will coordinate on damage assessments, 
        training, and restitution.
        <bullet>  Ensure that each reserve has a spill response plan 
        that identifies priority or key land and water areas for 
        protection. This requires an understanding of estuarine 
        dynamics in each reserve and high-resolution maps, imagery and 
        information on land use/land cover.
        <bullet>  Ensure reserve managers and selected staff members 
        receive Incident Command System (ICS) training on a regular 
        basis. This will help ensure that reserve personnel are aware 
        of response procedures and protocols for regional catastrophic 
        events.
        <bullet>  Ensure reserve managers are included as members of 
        state-based or regional response teams.
        <bullet>  Require NOAA to develop capacity within the reserve 
        system for Occupational Safety and Health Administration (OSHA) 
        certified hazardous materials trainers who can be deployed in 
        the event of a catastrophe. This will also require NOAA to 
        provide the resources and personnel agreements to allow rapid 
        deployment.
        <bullet>  Ensure US Coast Guard (USCG) Sector Commands have 
        updated information (e.g. boundary and habitat maps, 
        facilities, staffing and response capabilities) regarding 
        reserves within their regions, similar to information provided 
        for national parks, national wildlife refuges, and national 
        marine sanctuaries.
        <bullet>  Facilitate regional networks of national estuarine 
        research reserves, national parks, national wildlife refuges, 
        and national marine sanctuaries to improve communication and 
        response during catastrophic incidents. These collaborative 
        networks can participate in regional response planning much 
        more effectively than each agency working alone.
2.  In your testimony, you state that the NRDA process has not 
        incorporated long-term baseline data from the reserves. Can you 
        explain why that may be and why it is important to do so?
    We believe there are two primary reasons for ensuring reserve long-
term data is incorporated into the natural resource damage assessment 
(NRDA) process. First, we believe our long-term data can help ensure 
that spill-affected reserves are fairly compensated for the value of 
losses. Second, we believe our long-term data can also help to 
establish baselines against which damages to nearby estuarine and 
coastal areas can be judged and compensation set.
    The Coastal Zone Management Act established the reserve system, in 
part, to ensure that the nation protected biogeographically 
representative estuaries. The protections required for estuaries to 
gain reserve designation are intended to ensure the reserve is a stable 
environment for long-term research purposes to improve our 
understanding of estuarine functions. To support the role of reserves 
in improving that understanding, the federal government and its state 
partners have made key public investments in long-term baseline 
monitoring. Reserves collect a wide range of data including physical, 
chemical, and biological parameters designed to help define conditions 
required to sustain the long-term ecological integrity of estuaries. 
The data also increases our understanding of local anthropogenic 
disturbances that can result in degradation of these ecosystems. The 
results of reserve baseline monitoring efforts are primarily used by 
local and state coastal managers and researchers to inform local 
management and restoration actions. But they can also be used to 
understand regional impacts in a large scale event such as the Gulf 
spill.
    The monitoring data we collect, plus much other detailed scientific 
information about reserves, provides critical information for assessing 
not only damages to reserve resources but also for understanding 
damages to other estuarine resources in a region.
    Long-term data collected by reserves generally is not incorporated 
into NRDA efforts or planning. While there may be legal reasons, such 
as establishing a clear chain of custody, to conduct new sampling as an 
incident occurs, this should not obviate the use of the best available 
scientific information about reserves. The baseline data we collect at 
reserves is perhaps the nation's best source of long-term information 
about trends in our estuarine environments.
    NOAA's NRDA processes could be refined to ensure that reserve 
science becomes an integral part of the damage assessment process. The 
Gulf spill has illustrated that the NRDA process should plan for spills 
that have a regional impact. Since we will never be able to afford 
long-term hydrocarbon monitoring along the entire coast, strategic 
investments in such sampling at reserves could provide valuable 
information for comparative NRDA purposes. Sensors could be pre-
stationed at reserves and deployed when a spill happens, or could 
possibly be permanently deployed to monitor long-term hydrocarbon 
trends. In either case, NRDA protocols could then be developed to use 
the hydrocarbon data from the reserves to establish baselines for 
restitution and restoration.
    While we are now learning that some reserve data was useful in the 
NRDA process and protocol development, there is no comprehensive plan 
for using reserve data. In addition, we are concerned that failing to 
use the full suite of data available at reserves may result in not 
having a full picture of the damage done to reserve resources, or 
nearby estuaries, limiting what will be recovered in the restitution 
process.
3.  In your testimony, you advocate for reauthorization of the Coastal 
        Zone Management Act (CZMA). What specific recommendations is 
        your association making for a reauthorized CZMA? How will your 
        recommendations better prepare the reserves for an oil spill of 
        this size and complexity?
    The Gulf spill has demonstrated that reserves can, and do, play 
vital roles in responding to catastrophic events. We must, however, 
increase the capacity of the reserves to support response planning and 
implementation.
    NERRA drafted a reauthorization bill (enclosed for your 
information) earlier this year. Our draft includes sections that could 
enhance the capacity of the reserves to support planning for and 
response to catastrophic events. These include:
        <bullet>  Development of regional networks of coastal and 
        marine protected areas (Sec. 11). These networks could provide 
        incentives for coastal states and federal agencies to work 
        collaboratively to support regional science, restoration, 
        training and education. These networks should participate in 
        area contingency planning and ICS training with the USCG, share 
        site specific data through direct participation on NRDA 
        planning teams, and facilitate HAZMAT training for reserve 
        personnel as needed. An effective investment in regional 
        planning includes establishing full-time regional coordinators 
        that do not have other full-time jobs.
        <bullet>  Increase the capacity of the reserves' baseline 
        monitoring program (Sec. 5). We now believe this should include 
        sampling for hydrocarbons in water and sediments within regions 
        at risk of oil spills (i.e. local or large scale).
        <bullet>  Increase the capacity of the reserves' training 
        programs (Sec. 6). Reserve coastal training programs should 
        have HAZMAT training capabilities, including OSHA certified 
        HAZMAT trainers on staff. These trainers would facilitate 
        training for federal, state, and local government agencies 
        involved in event response.
    We will be happy to work with the subcommittee to further refine 
these sections to ensure that the language addresses oil-spill 
preparedness and planning.
    In addition, we now recognize two additional areas we believe a 
revised CZMA should address.
        <bullet>  Establish a catastrophic event contingency fund for 
        reserves and state coastal management programs. This fund, 
        administered by NOAA, would provide necessary funding to 
        reserves and state coastal programs faced with immediate 
        response needs. This fund should cover the costs of meeting 
        demands for training, equipment and safety requirements, 
        regional coordination, and science-based monitoring. Funds not 
        used during a fiscal year should rollover to the next year.
        <bullet>  Require reserves to incorporate better planning for 
        hazardous oil spills into their management plans. In addition, 
        each state coastal management program should incorporate better 
        oil spill planning that also includes coordination with any 
        reserves in the state.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Menashes, for 
explaining the role that the National Estuarine Research plan 
in preparedness planning.
    And now for our last witness this morning, Dr. Takahashi-
Kelso. You can begin your testimony.

STATEMENT OF DENNIS TAKAHASHI-KELSO, EXECUTIVE VICE PRESIDENT, 
         THE OCEAN CONSERVANCY, SANTA CRUZ, CALIFORNIA

    Dr. Takahashi-Kelso. Thank you. Good morning, and thank you 
for the invitation to participate in this hearing. I would like 
to thank Chairwoman Bordallo, Ranking Member Cassidy, and other 
members of the Subcommittee for the important work you are 
undertaking in response to the BP Deepwater Horizon disaster. 
The hearings you are conducting and the legislative responses 
you are considering are a vital part of ensuring that this 
human and environmental tragedy is never repeated.
    My name is Dennis Takahashi-Kelso, and I am the Executive 
Vice President of The Ocean Conservancy. Just yesterday, I 
walked the oiled beaches of the Florida Panhandle with Governor 
Crist, and it was a haunted reminder of my time as Alaska 
Commissioner of Environmental Conservation in the late 1980s. 
Instead of a beach, I stood on the bridge of the Exxon Valdez 
mere hours after the tanker ran aground on Bly Reef. For me, 
that began two years of work and oversight on the spill and its 
aftermath, including policy reform at the state and Federal 
level.
    As a precondition of the right to ship oil from the Valdez 
Marine Terminal, Exxon was required by Alaska law to formulate 
an oil spill contingency plan. The plan, which I approved for 
the State of Alaska, required sufficient response capacity for 
specific scenarios, included detailed maps and incorporated 
knowledge from fishermen and other local experts. During the 
real spill, however, Exxon failed to follow the approved plan.
    At that time the state and Federal governments did not have 
the authority to wrest control from Exxon. When the company's 
initial response proved ineffective, state agency staff, 
fishermen and other local volunteers took it upon themselves to 
mount a separate spill response in the high priority areas 
identified by the approved contingency plan.
    My point in telling this story is that spill response plans 
must not be just paper exercises. They are critical to 
effective recovery. Had the contingency plan been followed the 
response might have turned out very differently.
    The question today is: How can we make sure adequate site-
specific planning with balanced input from state and Federal 
governments is a valuable part of any future spill response? 
The Valdez Exxon spill provided five clear lessons about how to 
strengthen oil spill contingency planning.
    First, to be effective planning must be linked to 
immediately available equipment and personnel. Major spills 
happen, and we must be ready for them. We need to increase 
minimum response capacity, require that equipment be held on 
site or at nearby depots, provide training for local teams, and 
substantially increase funding for response efforts.
    Second, we must plan for true worst-case scenarios. Prior 
to the Exxon Valdez, the company resisted planning for a spill 
in excess of 100,000 barrels, saying it was unnecessary. The 
spill totaled more than twice that amount. The corner cutting 
that preceded the BP blowout showed a profound unwillingness to 
plan for a major spill.
    Third, states should have a meaningful role in reviewing 
and approving spill response plans. These plans should be 
available for public review and input. Affected communities 
should participate in the decisions about risks that impact 
them.
    Fourth, the Federal Government should establish regional 
citizens advisory councils to perform watchdog research and 
monitoring functions in areas that might be harmed by oil 
spills.
    My last point relates to my first. Major spills are a 
certainty, even though the probability of any single event may 
be low. In order to respond adequately, we need better baseline 
scientific information. We must ensure state and Federal 
agencies have the resources necessary to collect the data that 
will provide a foundation for natural resource damage 
assessments and the restoration steps to follow.
    Let us not forget, however, that while planning for spills 
is important, prevention is the real solution and, in the final 
analysis, the tragedy in the Gulf of Mexico highlights, all too 
poignantly, the need to reform how we manage our ocean and to 
abandon our current piecemeal approach. We need multi-objective 
planning that boosts interagency coordination and transparency 
in the trade-offs we are making between oil and gas production 
and other activities like fisheries, and we need to protect the 
overall heath of the ocean.
    The President's Ocean Policy Task Force has produced a 
compelling blueprint for moving forward, and the Consolidated 
Land, Energy, and Aquatic Resources Act of 2010, released in 
discussion draft form this week, also includes many excellent 
reforms. I look forward to working with the Committee as the 
bill moves through markup.
    Thank you again for the opportunity to testify.
    [The prepared statement of Dr. Takahashi-Kelso follows:]

 Statement of Dennis Takahashi-Kelso, Ph.D., Executive Vice President, 
             The Ocean Conservancy, Santa Cruz, California

    Good morning, and thank you for the invitation to participate in 
this hearing. My name is Dennis Takahashi-Kelso, and I am the Executive 
Vice President of Ocean Conservancy. My career includes diverse roles 
in natural resources management and environmental protection over 
several decades, much of it in Alaska. As Alaska Commissioner of 
Environmental Conservation when the tanker Exxon Valdez ran aground, I 
was the governor's cabinet officer responsible for enforcing the 
state's oil spill clean-up standards. For two years, I worked on the 
spill and its aftermath, including policy reform, in both the Alaska 
Legislature and in Congress.
    What we are currently witnessing in the Gulf is a human and 
environmental tragedy. I would like to thank your subcommittee, 
Chairwoman Bordallo, for the important work you are undertaking in 
response to the BP Deepwater Horizon disaster. The hearings you are 
convening, and the legislative responses you are considering, are a 
vital part of ensuring that a disaster of this magnitude is never 
repeated.
    This subcommittee has requested testimony on coastal state planning 
for offshore energy development and whether current planning efforts 
are adequate to ensure an effective, coordinated spill response. In 
particular, you requested consideration of whether planning efforts are 
adequate for large, complex spills, such as the BP Deepwater Horizon 
disaster; whether these planning efforts are sufficiently well-
coordinated among governmental agencies and levels; and what resources 
might improve oil spill planning, logistics, response, and recovery.
    In addressing those questions, I will first discuss my own 
experience in Alaska during and after the Exxon Valdez spill and review 
some of the lessons learned from that disaster. The Exxon Valdez spill 
underscored that it is essential for states to ensure adequate planning 
for spill response, and I will discuss ways in which this planning and 
response process can be improved. Finally, the BP Deepwater Horizon 
disaster has made it even clearer that prevention is absolutely 
critical. I will explain how the current ground rules governing oil and 
gas development need comprehensive reassessment and revision, within a 
context of improved ocean governance, and how those changes would 
improve the ability of states to reduce the risks of major oil spills 
and ensure better response preparedness.
Lessons learned from Exxon Valdez
    When the Exxon Valdez grounded and ripped open in Alaska's Prince 
William Sound, it spilled 11 million gallons of crude oil, about 20 
percent of the tanker's cargo. As a precondition of shipping oil from 
the Valdez Marine Terminal, state law required a site-specific oil 
spill ``contingency plan,'' and Exxon's approved plan addressed a 
hypothetical event that turned out to be of the same order of magnitude 
as the actual spill. The plan laid out the response capacity required 
of the shipper along with detailed maps, as well as other specific 
information drawn from fishermen and other local experts. When the 
spill occurred, however, Exxon's designated spill response agent, 
Alyeska Pipeline Service Company, did not carry out the actions 
described in the response plan. After about 24 hours, Exxon mobilized 
its own spill response, but without many of the site-specific features 
and other requirements of the state-approved plan. Under the applicable 
law--prior to passage by Congress of the Oil Pollution Act of 1990--the 
spiller had the right to maintain control over the spill response and 
the US Coast Guard had only limited authority to displace the company's 
control. Because the spill was in waters subject to federal 
jurisdiction, the state was not in a position to direct Exxon to 
implement the requirements of the approved plan. When Exxon had 
difficulty carrying out an effective response during the first several 
days of the spill, state agency staff, fishermen, and other local 
volunteers, mobilized our own spill response that targeted high 
priority areas identified by the approved oil spill contingency plan.
    Ultimately, the spill oiled at least parts of more than 1200 miles 
of shoreline--roughly equivalent to the distance from Massachusetts to 
North Carolina--and resulted in closures of salmon and herring 
fisheries, as well as economic losses to the tourism industry and other 
severe community impacts. Although most intensive during the first 
summer after the accident, the spill response extended over three 
years; and the damage assessment and restoration efforts continued for 
several more years. Now, 21 years later, recovery is well underway but 
not yet complete.
    Lessons learned from Exxon Valdez include:
        <bullet>  Prevention must be paramount. Once a large amount of 
        oil is in the water, damage is inevitable and removal of the 
        spilled oil is difficult. Consequently, prevention must be our 
        top priority. To achieve prevention, statutory and regulatory 
        standards must be high, application and enforcement of those 
        standards by government agencies must be diligent, and 
        incentives must be aligned with prevention. In the case of oil 
        transport, states have some, but limited, authority; the 
        primary responsibility lies with the US Coast Guard. The Oil 
        Pollution Act of 1990 made substantial improvements in some 
        prevention measures, such as requirements for double-hulled 
        tankers. While tankers still pose a sizable threat, we need to 
        ensure oil spill response plans and states can both address 
        current threats and adapt as new technologies and techniques 
        pose different challenges and risks.
        <bullet>  In a major spill, the spiller should not be in 
        control of the response. At the time of the Exxon Valdez spill, 
        the spiller had the legal right to direct and maintain control 
        of the spill response. As a result, Exxon could simply 
        substitute its judgment for that of government officials who 
        had first-hand knowledge of local conditions; there was no 
        effective recourse under the law as it then existed. The 
        federal Oil Pollution Act of 1990 improved the situation by 
        enabling the government to federalize spill response efforts, 
        direct the responsible party's spill response efforts, or 
        merely monitor the responsible party's spill response efforts.
        <bullet>  The Natural Resource Damage Assessment and 
        Restoration phases are crucial. The assessment of natural 
        resources damage and associated injuries as articulated by the 
        Oil Pollution Act of 1990 is not only a key element in 
        establishing the spiller's liability, but also in laying ground 
        for long-term restoration. In the Exxon Valdez spill, little 
        baseline information existed on which to assess damages. Even 
        in the Gulf of Mexico, the baseline is limited. It is essential 
        that studies begin immediately, even as the emergency response 
        is proceeding, in order to provide that key foundation for a 
        full assessment of injuries. The spiller should pay all costs 
        of the Natural Resource Damage Assessment, including the costs 
        of gathering and synthesizing baseline data; and it should not 
        fall upon the government agencies to ``front'' those costs from 
        their budgets, even if the expenditures are later reimbursed. 
        Restoration efforts will necessarily take years, and monitoring 
        should be ongoing for decades.
Policy changes following the Exxon Valdez spill
    The Exxon Valdez spill spurred changes in both state and federal 
legislation governing oil spill prevention, preparedness, and response 
as they began to address some of the lessons learned from the spill. 
During the year following the Exxon Valdez spill, the Alaska 
Legislature began to strengthen the requirements for oil spill 
contingency planning. In many ways, the new legislation was a model of 
how a state can protect its citizens through better spill response 
preparedness. These changes substantially increased minimum response 
capacity, required equipment to be available on-site or in nearby 
equipment depots, called for training of local response teams, 
increased the size of the oil and hazardous substance response fund, 
and made other significant improvements. The situation in Alaska 
illustrates how important it is to have a stable triangle of 
protection: state response and preparedness standards; federal 
regulation of activities beyond state jurisdiction, for prevention and 
response; and strong watchdog functions carried out by residents who 
know the area and are exposed to the risks. In this way, the affected 
public and the ocean ecosystems on which communities depend are more 
likely to be protected than if they rely solely on state or federal 
authorities.
    The most important federal legislative change was passage of the 
Oil Pollution Act of 1990 (OPA 90), which introduced several critical 
reforms, including technical standards, improved response planning, 
funding for research and development, and liability and compensation 
requirements. Under OPA 90's amendments to the Clean Water Act, the 
federal government may respond to a spill event by ``federalizing'' the 
spill and engaging directly in the cleanup, monitoring the responsible 
party's cleanup efforts, or directing the responsible party in 
implementation of the response. 33 U.S.C. Sec. 1321(c)(1)(B). These 
changes have made it more likely that the relevant contingency plans 
would be properly carried out during a major spill. The state's role is 
limited, however, because the federal government retains authority to 
decide when cleanup is complete.
    OPA 90 also expanded the role and breadth of the National 
Contingency Plan (NCP) and linked the NCP to area and regional plans--a 
multi-layered planning and response system intended to improve spill 
preparedness and response effectiveness by combining the site-
specificity of plans formulated by Area Committees and states with the 
consistency of the NCP and regional plans. OPA 90 also includes a 
requirement for establishing procedures and standards for responding to 
worst case oil spill scenarios. 33 U.S.C. Sec. 1321(d)(2)(J).
    While OPA 90 made several significant improvements and addressed 
critical gaps in spill response plans, it did not resolve all the 
issues related to exploration and development of oil and gas resources, 
nor to planning for, response to, and remediation of spills. Three 
problems undercut the effectiveness of this approach. First, the 
adequacy of planning efforts and other legal requirements depends 
substantially on the ability to mobilize and sustain an emergency 
response. That is, the nested plans in the NCP array, no matter how 
thoughtfully conceived, can be effective only if equipment and 
personnel are deployed immediately in response. The actual location of 
these resources, not the contractual arrangements to get them, is 
crucial and may be a weak link. Second, a ``worst case'' is often 
difficult to pursue when the key government agency-- Minerals 
Management Service, in the case of offshore drilling--insists that the 
risk is ``insignificant.'' In another example, Exxon resisted Alaska's 
efforts to require contingency plan scenarios for spills in excess of 
100,000 barrels; the company said that such a scenario was unnecessary 
because its modeling indicated that a spill of that magnitude would 
happen only once in 241 years. The Exxon Valdez spill exceeded 250,000 
barrels. Achieving a meaningful ``worst case'' spill planning scenario 
will always be difficult, and planning only for less severe spills will 
leave residual risk that is not addressed. Third, for a state to be 
effective, it needs to have the capacity to enforce its plan and 
participate simultaneously in the Natural Resources Damage Assessment, 
which must start almost as soon as the emergency response begins. This 
level of engagement, immediate and long-term, is both expensive and 
technically demanding. Few states have the staffing and technical 
support to sustain it without external funding and other resources.
    In the intervening decades, as both the complacency of the public 
and the political influence of the oil and gas industry have grown, 
these standards have been repealed or severely weakened. There are a 
number of areas in which OPA 90 can and should be improved in order to 
help coastal states address potential impacts of oil spills on their 
shores.
    Oil spill response plans must address spill events of very large 
size, must be site-specific, and must be tailored to local conditions. 
The federal government should provide both funding and logistical 
assistance to states to ensure their plans include improved baseline 
data to better understand potential impacts, a clearer role for public 
review and better standards to ensure response plans can be fully 
executed in the event of a spill.
Improved baseline data
    Increased funding for science and response efforts is needed for 
states to fully understand the potential impacts on the local ecosystem 
from a large-scale spill and how best to respond to a spill given these 
ecological conditions. Baseline scientific data are critical to ensure 
that the response and clean up are appropriate, and are also an 
important foundation for a Natural Resource Damage Assessment. This 
information can and should guide the type of response efforts the 
states should require in clean up plans. Annual funding is needed to 
support a comprehensive program of research, monitoring, and 
documentation of local and traditional knowledge. That work would 
assess and monitor populations of principal species in the ecosystem 
and the biological and physical factors that affect their abundance and 
distribution; construct and maintain an updated quantitative food web 
model; identify sensitive species and important ecological areas; and 
enhance understanding of temporal and spatial variability within 
ecosystems.
    It may be possible to provide funding to fill these needs with 
minor changes to OPA 90, 33 U.S.C. Sec. 2701, et seq. OPA 90 authorizes 
certain uses of the Oil Spill Liability Trust Fund, which holds revenue 
from a per-barrel tax on oil production. 33 U.S.C. Sec. 2712. With 
minor changes, OPA 90 could provide funds to the National Oceanic and 
Atmospheric Administration (NOAA) and U.S. Fish and Wildlife Service or 
other agencies to conduct the necessary science and to the US Coast 
Guard to identify and implement the necessary precautions. It is 
important to provide the public with access to data and other 
information. Congress should guarantee public access to information 
gathered after a spill and as part of the research and planning 
process.
Strong Standards for Response
     In the case of the Exxon Valdez spill, unlike the BP Deepwater 
Horizon disaster, the size of the maximum possible spill was clear: it 
could not exceed the total cargo carried by the vessel. As a result, 
planning for a ``worst case'' spill was more straightforward. Although 
a site-specific plan--as required by state law--was pre-approved and in 
place, the failure to carry out the plan resulted in the loss of 
valuable time and a less effective response. In order to be deployed 
quickly, equipment and personnel must be either pre-positioned near 
potential spill sites or quickly mobilized from nearby locations that 
actually have those resources on site. Spill response plans, of which 
Exxon's plan is an example, rely upon contracts with spill response 
companies or regional consortia. Delays in mobilization of an effective 
spill response may result from the lack of actual capacity in the area 
of the spill. To be effective in an emergency, response capability must 
be mobilized immediately, and if the response plan calls for 
contractors to provide the equipment and workers for the response, 
actual capacity needs to be demonstrated ahead of time. Equipment must 
be based in the near vicinity of potential accidents, and trained teams 
of responders must be available in-region to operate the equipment in 
accordance with the pre-approved plan.
    We need to ensure that companies have considered the worst case 
scenario and have the resources and infrastructure to fully execute 
their response plans. The plans may be very good, but they are 
blueprints for response, not actual spill response capacity. Plans must 
link with other providers of response equipment and personnel. The 
amount of equipment and its location is crucial to whether the plans 
can actually make a difference if a spill actually occurs.
Public Review and Participation
    In addition, spill response plans, as part of exploration or 
development plans, are intended to be available for public review--a 
key way in which affected communities can participate in the decisions 
about risks that affect them. States should develop a specific process 
to ensure the public has access and input to the plan. Exploration and 
development plans are generally approved ``conditionally,'' pending 
development of a spill response plan subsequent to the approval. There 
is no specific public review process for the plan. Consideration should 
be given to developing such a process, or, more broadly, to avoiding 
conditional approvals. Any public process around spill response plans 
should also require that MMS respond to public comments, questions, and 
input specifically, rather than simply issuing an approval with 
standard, vague language stating that the agency concluded the plan met 
statutory and regulatory requirements.
    Lastly, the federal government should establish Regional Citizens' 
Advisory Councils (RCAC) for regions that could be impacted by oil 
spills. One area of OPA 90 that has proven to be particularly useful is 
the establishment of RCACs specifically for terminal and tanker 
oversight and monitoring in Alaska. Essentially, RCACs offer the 
opportunity for local residents to perform a watchdog, research, and 
monitoring function. Duties of the RCACs include providing advice and 
recommendations on policies, permits, and regulations; monitoring 
environmental impacts and operations and maintenance of facilities; and 
reviewing adequacy of spill prevention and contingency plans. The RCACs 
are also allowed to review scientific research and to conduct their own 
studies. According to Boston College Law Professor Zygmunt Plater, an 
expert in oil and gas regulatory policy, the original OPA 90 language 
proposed RCACs for areas of oil and gas development outside of Alaska, 
but this language was removed from the bill due to political pressure 
from the oil and gas industry (National Public Radio interview, June 
17, 2010). Establishing one or more RCACs in the Gulf of Mexico could 
help Gulf states and local communities maintain ongoing oversight of 
oil and gas operations in the Gulf. It would be important to ensure 
that the membership of RCAC included persons who in a position to play 
a watchdog role.
Policy Reforms to Focus on Prevention and Minimization of Risk
    As we saw with the Exxon Valdez, where no more than 10 percent of 
the spilled oil was actually cleaned up--and as we are now seeing with 
the tragedy in the Gulf--prevention is far more effective than is 
response. The BP Deepwater Horizon disaster demonstrates vividly that 
our nation's approach to oil and gas activities on the Outer 
Continental Shelf (OCS) is fundamentally flawed. In the case of oil and 
gas drilling, the primary government authority lies with the Minerals 
Management Service (MMS); and substantial changes to federal laws are 
needed to establish new standards for its decisions. The standards and 
procedures applicable to these government agencies must define 
effective roles for the states to play in preventing spills. Beyond 
changes to OPA 90, other regulatory reforms are needed to prevent or 
address disasters like the BP Deepwater Horizon blowout. The federal 
agency responsible for oil and gas activities on the OCS, the 
Department of the Interior's MMS, has proved incapable of effective 
planning, regulation, and oversight. Federal statutes governing oil and 
gas activities on the OCS do too little to ensure that coastal and 
ocean ecosystems--including living coastal and marine resources and 
habitats--receive adequate protection. As Congress acts to develop a 
legislative response to the events of this disaster, we urge you to act 
on the following five priorities to reform OCS legislation.
        <bullet>  Reform the Outer Continental Shelf Lands Act (OCSLA) 
        by adding substantive standards to adequately protect ocean 
        health and coastal economies. In planning and administering OCS 
        oil and gas activities, existing law requires MMS to balance 
        oil and gas development with protection of human, marine, and 
        coastal environments. In practice, however, MMS prioritizes 
        resource extraction, often at the expense of these other 
        concerns, as demonstrated by the current spill. Congress should 
        change the statute's mission to place a greater emphasis on 
        protecting ocean health. OCSLA should allow oil and gas 
        activities only when it is proven such activities pose minimal 
        environmental risk. In addition, Congress should add 
        substantive standards to OCSLA to ensure protection. For 
        example, before an area is opened to oil and gas leasing, there 
        must be a threshold level of baseline science to inform 
        decision-making. Similarly, OCS planning efforts must identify 
        and protect important ecological areas to minimize the 
        potential for environmental harm. Congress should prohibit the 
        sale of oil and gas leases in an area unless and until 
        operators have demonstrated their ability to respond 
        effectively to an oil spill in real-world conditions in that 
        area. Congress should also impose more rigorous standards to 
        ensure that OCS facilities are equipped with the best available 
        technology and safety equipment.
        <bullet>  Fix the planning and leasing process to ensure robust 
        environmental review, enhance transparency, and allow for 
        community input. MMS must no longer be allowed to use the 
        segmented nature of the OCSLA process to avoid rigorous 
        analysis under the National Environmental Policy Act (NEPA) and 
        other laws. OCSLA should be amended to impose specific 
        requirements for environmental analysis at each stage in the 
        process and require full, site-specific analyses of exploration 
        and production as early as possible. Planning and leasing 
        activities for oil and gas development need to proceed at 
        scales that allow for meaningful environmental review with 
        ample opportunity for community input and inclusion of local 
        and traditional knowledge. Congress should require five-year 
        leasing programs to be more precise in identifying the portions 
        of planning areas that will be open to oil and gas leasing by, 
        for example, placing an upper limit on the percentage of a 
        planning area that may be included in any one five-year leasing 
        program. Alternatively, Congress could require MMS to focus 
        individual lease sales on specific lease tracts, rather than 
        offering enormous portions of planning areas. In order to 
        facilitate more rigorous NEPA analysis, Congress should also 
        eliminate the 30-day deadline under which MMS must approve a 
        ``submitted'' exploration plan. Furthermore, natural resource 
        and environmental agencies should have a greater role in 
        providing baseline science and influencing decision-making 
        about oil and gas activities off our coasts. In particular, 
        NOAA and Interior agencies, such as the US Fish and Wildlife 
        Service, should play key roles in deciding which areas will be 
        available for leasing, and in preparing environmental analyses 
        in support of oil and gas leasing decisions.
        <bullet>  Restructure the agency responsibilities for oil and 
        gas planning, leasing, and oversight. MMS lacks the expertise 
        and institutional interest in broad ocean issues and has proven 
        to be unable to assess objectively and accurately the potential 
        risks of OCS drilling. Restructuring MMS should fully address 
        conflicts between the revenue generating, planning, and 
        environmental and safety enforcement responsibilities of the 
        agency. In addition, expert agencies beyond MMS, such as NOAA 
        and the US Fish and Wildlife Service, should have a much 
        greater role in decisions about OCS oil and gas activities and 
        preparation of environmental analyses surrounding them.
        <bullet>  Hold oil companies and other responsible parties 
        accountable for paying for clean up and damages associated with 
        oil spills. The current $75 million cap on liability should be 
        removed in order to hold companies like BP responsible for 
        their actions and ensure that oil companies, not taxpayers, are 
        forced to clean up after their mistakes.
        <bullet>  Direct funding from oil and gas activities to protect 
        and restore ocean and coastal resources, increase our ocean 
        knowledge, and develop our capacity to respond to and recover 
        from oil spills. Oil companies make billions of dollars while 
        putting our ocean ecosystems and coastal economies at risk. A 
        portion of the revenue from these activities should be 
        permanently available to protect, restore, and maintain our 
        ocean and coastal resources and be provided in such a way that 
        it does not incentivize new drilling activity. In addition, as 
        efforts over the last two months have demonstrated, our ability 
        to respond to oil spills and reduce environmental harm is 
        limited by the state of our ocean and coastal science and 
        technology. Additional resources should be provided to better 
        understand our coastal and marine environment and improve our 
        ability to safely and sustainably operate there. Last year this 
        committee held hearings on H.R. 3534 the Consolidated Land, 
        Energy, and Aquatic Resources Act of 2009, which would 
        establish an Ocean Resources Conservation and Assistance Fund. 
        We strongly support the establishment of this type of permanent 
        funding for ocean conservation, science, and planning.
The Bigger Picture: Healthy Oceans Matter
    More broadly, this disaster is only the most dramatic example of 
the threats facing our ocean. Habitat destruction, ocean acidification, 
marine debris and coastal runoff are among the many threats to the 
health of ocean ecosystems. The tragedy in the Gulf of Mexico 
highlights poignantly why healthy oceans matter - not only for fish and 
marine wildlife, but for coastal economies that rely on healthy 
fisheries and clean beaches. In addition to enacting specific reforms 
to the statutes that govern oil and gas development, we must reform our 
overall approach to managing our oceans.
    In part, the threatened state of our ocean is due to the sector-by-
sector management of diverse uses. Sector-by-sector management has led 
to serious conflicts among users. In the case of the Deepwater Horizon 
disaster, a single-minded focus on natural resource extraction with 
only cursory consideration of potential impacts to ecosystem health or 
other ocean uses created conditions in which safety, environmental 
reviews, preparation, safeguards, monitoring and oversight, and 
response capabilities were all inadequate.
    We rely on our ocean and coasts to provide much more than just oil 
and gas. Decision-making based on a detailed review of only one sector, 
or only one use, is insufficient. As we increasingly look to our oceans 
to provide food, energy, transportation, and recreation, we need better 
coordination and a more complete approach to planning and risk 
management. We also need to prioritize ecosystem health, because we 
cannot afford to lose the critical ecosystem services that only healthy 
ecosystems provide. Many of these recommendations are incorporated in 
the presidentially established Interagency Ocean Policy Task Force's 
(IOPTF) draft recommendations on National Ocean Policy (NOP) and 
coastal and marine spatial planning (CMSP).
    A strong NOP that implements ecosystem-based management and 
establishes protection, maintenance, and restoration of ocean and 
coastal ecosystems as the foundation for federal management--if 
mandatory and properly implemented--would protect ocean wildlife and 
habitat from harmful development, reduce impacts on sensitive and 
special areas, and help to build ecosystem resilience. It would also 
help balance resource extraction and ecosystem protection, ensuring 
careful consideration of the potential impacts of oil and gas 
activities on the marine and coastal environment, other ocean uses, and 
ecosystem health and resilience. Protecting important ecological areas 
and limiting hazardous activities would safeguard wildlife populations, 
promote healthier estuaries and watersheds, and reduce the likelihood 
and cumulative impacts of catastrophes like the disaster in the Gulf of 
Mexico.
    Coastal and marine spatial planning, used to implement a strong 
NOP, could provide several key benefits that could prevent the 
conditions that led to the BP Deepwater Horizon disaster. CMSP would 
facilitate interagency coordination and decision-making and would allow 
other expert agencies to have increased input on, or authority over, 
decisions about oil and gas activities. This process would result in a 
foundation of baseline scientific data that facilitates science-based 
management, help identify future use or management problems, and 
promote smarter, more sustainable uses. Implementation of the IOPTF 
recommendations would also provide for increased public input into 
decision-making, including from local communities, other ocean users, 
and non-governmental organizations.
    Additionally, having in place a multi-objective plan and an 
established agreement on management goals can help when emergencies 
such as oil disasters or hurricanes occur. Preparing for and working to 
prevent impacts from extreme weather events, commercial use and 
development, or industrial disasters is an integral part of CMSP. 
Better oversight and enforcement can help prevent disasters; better 
planning, preparation, and coordination can help minimize the impacts 
of those that do occur. While a national ocean policy using CMSP has 
not yet been finalized, Congress can craft new legislation or amend 
existing statutes in ways that would both set the stage for and align 
with CMSP processes.
    While none of these changes could guarantee that we will never have 
another oil spill disaster, taken together they could ensure that we 
will not have one of this magnitude and complexity before we have fully 
understood and accounted for the risks involved.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Takahashi-Kelso, for 
your valuable input on this subject matter, and I will now be 
recognizing members of the Subcommittee for any questions that 
they have to ask those that have testified, and I will begin 
with myself. I have a couple of questions here for Dr. Walker.
    BP has pledged $500 million to fund the Gulf of Mexico 
research initiative. How much of this funding would the 
alliance like to receive, and how would you prioritize it?
    Dr. Walker. Thank you, Madam Chair.
    Our Governor has been clear that he would like for the 
alliance to receive as much of that as possible. About 25 
million has been given out already to the States of Florida, 
Mississippi and Louisiana. We would suggest that the bulk of 
the remaining funds be provided to the Gulf Alliance so that 
those funds can be controlled by the Governors of the states 
that are most affected by this event.
    What we would do is pull together a select group of 
scientists from universities, from Federal agencies, from 
NGO's, from the Coastal States Organization, from folks that 
are knowledgeable about this and have been working in the Gulf 
for years and years, ask them to help us develop the scope of 
the research, remediation and restoration program that needs to 
take place, and then help us determine the actual process of an 
RFP or some other ways to actually select and provide support 
to the teams of scientists that would actually do the work.
    Ms. Bordallo. Another question, does the alliance's network 
of scientists have the expertise and capacity to conduct 
research to understand the fate and the impacts of the oil and 
dispersants on the environment and the resource-dependent 
industries?
    Dr. Walker. Yes, ma'am. Absolutely we do. Many of the 
research teams that are out in the Gulf even now looking at the 
oil spill and the dispersed cloud of oil that is below the 
surface are Mississippi scientists. They are from places like 
the Stennis Space Center, LUMCON, and the southern South 
Florida Research Institute, but we are not suggesting that no 
expertise outside of the Gulf states would be sought. Certainly 
there is expertise at many other places in this country of 
outstanding scientific minds that we would certainly bring to 
the table to respond to this situation. Thank you.
    Ms. Bordallo. Very good. Ms. Fletcher, you recommend that 
Congress extend the 30-day review period to allow for CZMA 
state agencies to conduct Federal consistency reviews. Now, 
what would be an adequate review period and why? And should 
this apply to all proposed actions or apply to just proposals 
for offshore energy?
    Ms. Fletcher. Thank you, Chairwoman.
    The review period right now at 30 days is simply not 
adequate. In reaching out to the states in preparation for this 
testimony, many states weighed in at a six-month mark, that 
that would give the states the ability to go through a 
consistency review that would give them the information that 
they need. Also, the tool of consistency is one that allows 
communication both ways, and so there is communication back and 
forth, and that is really what consistency is about.
    Ms. Bordallo. Thank you, and I have one last question for 
Mr. Barton. Do you think that the Jackson County emergency 
operations command has fully engaged with the managers at the 
Grand Bay National Estuarine Research Reserve with regard to 
oil spill contingency planning, and has the environmental 
information gathered by the Grand Bay Reserve as part of the 
systemwide monitoring program been utilized for this purpose?
    Mr. Barton. I am not sure that I know that total answer. I 
know that there is communication that has been going on. They 
have a great relationship between the folks at the Grand Bay 
and our emergency operations folks, and so there is a good 
relationship there. Exactly how much of that data is being 
passed back and forth? I couldn't really answer that question.
    Ms. Bordallo. Thank you. Would there be any way that you 
could get some information on that and provide it for the 
Committee?
    Mr. Barton. We actually have our emergency operations guy 
here with us today, he is sitting behind me. He says the data 
is being made available both ways.
    Ms. Bordallo. Very good. Mr. Menashes, in your testimony, 
you make recommendations for improved training for oil spills. 
If there is one area where you would improve training right 
now, where would that be? And is such training within the 
mission and purposes of the National Estuarine Research Reserve 
System?
    Mr. Menashes. Thank you, Chairwoman.
    Yes, the training is within our mission. This is also an 
area where we are hoping to see as part of the reauthorization 
of the Coastal Zone Management Act additional emphasis placed 
on training within the reserve system. We believe the area 
where we can provide the most immediate impact on oil spills is 
within our DA training and working with our partners at NOAA 
and the offices at the agency to develop tools for our people, 
whether they be in the Gulf of Mexico or on the Atlantic or 
Pacific coasts, to be able to gear up very quickly and provide 
training where NOAA staff cannot because they are involved in 
other activities. So we think NRDA training is probably an area 
where we can provide quick impact.
    Ms. Bordallo. Thank you very much, and now I would like to 
recognize the gentleman from Louisiana, Mr. Cassidy, our acting 
Ranking Member of the Subcommittee.
    Mr. Cassidy. Thanks to all the witnesses because I feel 
like each of your comments illuminated my understanding.
    Mr. Barton.
    Mr. Barton. Yes.
    Mr. Cassidy. This is obviously about--you mentioned 
communication. I have found that the absence of communication 
is the root of the fights in my marriage, so I can imagine that 
it has a role here too. Clearly, the folks along coastal 
Louisiana, the local officials have been frustrated about the 
absence of coordination, the absence of a decision chain where 
they could find one person that would say ``Yea'' or ``Nay'' to 
a proposal. But it appears your experience is different. Can 
you give me a sense of why that difference might be there?
    Mr. Barton. Well, we have certainly had some frustrations 
as we have worked our way through this ourselves. You know, as 
I said earlier, we have had many hurricanes, the last one 
certainly being Katrina, and working through that process we--
of course, working through the Stafford Act and there are some 
specific things there, but the process actually worked fairly 
well there in terms of the NIMS process and the command 
process, incident command, unified command, and so forth. That 
is not to say that communications was always real good from the 
top to the bottom or the bottom to the top.
    Now, the communications issue has been an issue with us 
even through this event, and part of the problem has been 
through no fault of any one specific person or group, it is 
just that, as I said in my written testimony, the unified 
command has a fairly large area that they are trying to 
coordinate all the activities in, and so when it is that spread 
out, and we are getting bits and pieces, for instance, if there 
is oil coming up south of the islands, as it is today, we know 
that there is a tripping point, we know there is a point at 
which there is going to be a response.
    The local folks though, the local elected officials, many 
times may not know and may not hear exactly when something is 
going to happen, so there is a little bit of a disconnect 
there, and sometimes it takes longer to get specific things, 
and that is why I say this communication is so important 
because the local people, they expect the people they believe 
they have elected to manage those things locally are supposed 
to know the answer, and that is very difficult thing to get.
    Mr. Cassidy. Well, there seems to be a disconnect between 
the knowledge base, which I think is stronger among the locals, 
and the power to deploy assets, which is Federal. Now obviously 
communication, communication, communication. What would be a 
specific example of how we could say, heck, like Billy 
Nungesser, go to Plaquemines Parish. We saw oil going past a 
rig. We called and said oil is going past a rig on Tuesday. 
Thursday morning somebody was sent out there to look at the oil 
going past the rig.
    Mr. Barton. Right.
    Mr. Cassidy. By that time it is approaching the beach. So 
there seems to be a lag time. Is there anything more than----
    Mr. Barton. The one thing I would say, in our particular 
case, we had a lot of experience with hurricanes, and so a lot 
of the people that are at the table have been at the table many 
times. They all know each other. They have dealt with each 
other.
    Mr. Cassidy. So relationships.
    Mr. Barton. There are a lot of good relationships there.
    Mr. Cassidy. And that helps.
    Mr. Barton. And if I have a question, I will pick up the 
phone and call Bill Walker.
    Mr. Cassidy. Right.
    Mr. Barton. OK. I mean, if it is that important that I get 
an answer right now, then that is what I would do, and so those 
relationships are there.
    Mr. Cassidy. So several of the folks have suggested that 
there needs to be kind of an infrastructure of response, if you 
will, but part of that infrastructure is to allow those kind of 
informal relationships to allow an expeditious response, kind 
of?
    Mr. Barton. Yes.
    Mr. Cassidy. And let me move on because I am about to lose 
time.
    Ms. Fletcher or Mr. Kelso, I am sorry, I cannot take a 
crack at your middle name, I apologize.
    Ms. Bordallo. Takahashi.
    Mr. Cassidy. Takahashi, I apologize. It seems like 
education. I mean, a spill of national significance exercises 
should address this lack of coordination that both of you 
decry. If it really works, then everything the two of you 
suggested seems like it would be brought to bear. Does that 
make sense?
    Dr. Takahashi-Kelso. Thank you, Mr. Cassidy.
    The structure that exists now does, in theory, build in 
local knowledge and the relationships that will allow a spill 
of national significance to have a response that is grounded in 
real information, as Mr. Barton was just describing, and also 
has the kind of command structure that allows a major spill to 
have a response. So here is what I would suggest. I think this 
is directly responsive to your point.
    It is really important for the area committees at the local 
level to have a spill response plan that builds into it those 
plans that are specific to facilities; that is, you need 
something that is really site-specific. The time to build in 
local knowledge is right at the outset. And then the regional 
response team and its regional plan, the national contingency 
plan, you need to incorporate those, and the reason for that is 
that when there is a spill you don't have time to invent that 
piece. You have to have it ready to go, and assuming that it is 
a spill of national significance, as in this case, then the 
Coast Guard commander can implement directly the spill response 
that already has that local and state input. So the 
communication, the relationships, the on-the-ground content 
need to be built in right from the outset.
    The reason I emphasize that is the facility-specific plans 
should have direct information about what is on site, what can 
be mobilized within two hours, what takes half a day, what can 
be there the next day. That kind of specificity you don't find 
in the larger nested plans, and that is why you have to have it 
at the beginning, and you have to have it built in so that the 
national plan actually carries it out.
    Mr. Cassidy. Ms. Fletcher, would you add anything? 
Actually, can you hold because I am out of time, and the Madam 
Chair is being very indulgent. I am sorry, go ahead.
    Ms. Fletcher. I don't have a lot to add to that, but I 
would agree that the information does have to go in at the 
outset, and we have other authorities, and the Coastal Zone 
Management Act is one of those that allows for the gathering of 
that information and allows for both the states as well as the 
communities to be putting in that information.
    I think the other example is our Chair is actually here in 
town this week from New Hampshire, and New Hampshire has been 
doing these type of cooperative arrangements in terms of 
bringing the industry, as well as the state agencies, together 
and they actually have a Canadian input into that as well. So 
there are opportunities there for some industry and state 
cooperative arrangements that can help to develop those 
relationships that Mr. Barton was discussing as well.
    Mr. Cassidy. Thank you. I yield back.
    Ms. Bordallo. I thank the acting Ranking Member of the 
Subcommittee, and now I would like to recognize the gentlelady 
from California, Ms. Capps.
    Ms. Capps. Thank you, Madam Chair, and thank you for your 
testimony, each of you.
    It is clear that an oil spill of this volume, scale and 
duration was never fully contemplated by state or regional 
responders. The complexity and magnitude of this ongoing spill 
has highlighted the need for extensive ocean observing network 
that can be immediately activated in the event of a spill. This 
ocean observing network, including satellites, buoys and 
underwater gliders, should be coordinated at the state and 
regional levels to provide pre-spill assessments and real time 
forecasts that guide the work of responders. That is the 
impression I am getting from you all as well.
    Dr. Walker, this first question will be to you. I am 
advocating for more money for the Integrated Ocean Observing 
System--I guess it is called IOOS--and calling attention to the 
utility of a fully operated ocean observing system throughout 
the nation. Dr. Walker, do you feel that having a robust IUs or 
an ocean observing system in place is important in situations 
like this one in the Gulf for providing data on things like oil 
concentration and transport with ocean currents?
    Dr. Walker. Absolutely. We are working with the State of 
Mississippi as well as the Gulf of Mexico Alliance is working 
very hard with Dr. Nolans out of Texas that sort of chairs the 
IOOS group. We have membership from all of the Gulf states are 
involved with that group. They are active in the Gulf of Mexico 
Alliance organization and activities, and they are a critical 
part of our habitat integration and assessment team within the 
Gulf Alliance.
    So, any help you can provide to help provide support for 
IOOS and the other IOOSs around the country would be greatly 
appreciated. Thank you.
    Ms. Capps. Thank you. I appreciate that you are 
highlighting both the state's responsibility but also a 
regional network that you have.
    Ms. Fletcher, the Coastal States Organization is the topic 
now. In your testimony, you suggest that states should review 
and provide oversight of offshore oil and gas operations. This 
makes sense. In California, the Coastal Commission has not had 
the funds or the staff to implement its own inspection program 
of offshore drilling. Therefore it relies on MMS inspections. 
Can you provide the Subcommittee specific recommendations to 
provide for state and local agency participation in such 
inspections?
    Again, I am honing in on the ability of local and even 
state input but sometimes the funding is not there to have the 
adequate staff.
    Ms. Fletcher. Yes. We actually had a conversation with the 
California Coastal Commission before testifying today, and they 
indicated that was one of their greatest challenges. The 
ability to rely on firsthand knowledge as opposed to the 
Federal agency reports is going to be critical in bringing to 
bear the state knowledge, the county's knowledge. They were 
giving me examples of the expertise at the Santa Barbara County 
level as a result of the oil spill that they deal with----
    Ms. Capps. Yes.
    Ms. Fletcher. So to be able to bring that kind of knowledge 
into the forefront will also help that Federal report to be 
more thorough. It can be more of a partner-created format, and 
that report ultimately will be more effective.
    Ms. Capps. Thank you. Now, Manly Barton, would you offer 
your perspective? Do you have recommendations to provide for 
local participation in inspections?
    Mr. Barton. On the inspection side?
    Ms. Capps. Or participation in general.
    Mr. Barton. Well, participation in general, and that is one 
of the reasons we talked about in this response in the NIMS 
process. It kind of brings that back to the state level where 
the local input, as has been mentioned here today, is very 
important because they know what their needs are, they know 
what is there.
    Ms. Capps. Right.
    Mr. Barton. They know how to protect what needs to be 
protected, and that was one of the reasons we had indicated 
that we would like to see that because we believe if it is 
brought back to a state level, then the local community would 
be more involved in the entire process.
    Ms. Capps. Thank you. Dr. Kelso, in California following 
the 2007 COSCO Busan spill, NOAA used data regarding currents 
to create oil spill trajectories using real time conditions. 
From your perspective as a scientist, why is it important to 
provide Federal funding for the integration and continued 
operation of IOOSs?
    Dr. Takahashi-Kelso. Thank you. It is crucial that the 
response be tailored as tightly as possible to what is actually 
happening and what is going to happen in the near term and, for 
that to be effective, it requires a fair amount of good science 
ahead of time and the kind of modeling that predicts the 
trajectory. That way you can move equipment and personnel into 
place. You can do other data gathering that you are going to 
need later in order to assess damage, and without it, without 
the input, the science input and the good modeling to make the 
trajectories realistic, you are simply going to be at the wrong 
place at the wrong time. So I think it is absolutely essential.
    There are several layers in which the information and 
modeling can be improved, but I think the overall goal of doing 
that is fundamental to improving our response capability.
    Ms. Capps. So it is clear--I know I am out of time--the 
Federal Government has a role, the regional coalitions or 
alliances, the state has a clear role to play, but it all 
depends on what the local knowledge has yielded as well, and I 
had another question for Mr. Menashes.
    Ms. Bordallo. We will have a second round.
    Ms. Capps. Thank you very much. I yield back.
    Ms. Bordallo. I thank the gentlelady from California. I 
would now like to recognize Mr. Wittman, the gentleman from 
Virginia.
    Mr. Wittman. Thank you, Madam Chairwoman, and I would like 
to thank the witnesses for joining us today.
    Dr. Walker, let me begin with you. In your testimony, you 
talk about Mississippi's effort in planning. It appears as 
though the planning effort coincided with the area contingency 
plan or the Mississippi Coastal Program, so there was some 
coordination there in understanding at the state level. 
Apparently that led to better decisionmaking between the state 
and BP in coordination and, of course, that is the central 
crux, I think, of a lot of concerns here is how do those pieces 
of the decisionmaking come together. So I want to get your 
thoughts on that and how you believe the Mississippi planning 
efforts to protect the coastal zones came together based on 
previous efforts, and then how that is put in place right now, 
and how successful that is, and then I have a follow-up 
question about some of the other areas of contingency, but if 
you could give us your thoughts and ideas about that.
    Dr. Walker. Thank you, Congressman.
    We work with the Federal Government and with organizations 
like Kristen's all the time in updating our coastal program so 
that we can better understand and better plan for what kind of 
energy type industries we want in our general area and where we 
want them, and that has worked out very well. We review all of 
the permit applications. We make recommendations for siting in 
different places, and I think that is helpful.
    In an after-the-fact sort of pulling together a plan, we 
always think in terms of trying to pull together a good team. 
After this event happened, we immediately opened up our 
building in Biloxi, Mississippi. We brought in BP there in our 
building; we brought in the Department of Environmental Quality 
there in our building; and we brought in NOAA, the Coast Guard, 
and the National Guard. So all of those folks are physically 
located in our building.
    Every morning we get together and talk about what happened 
the day before, what needs to happen in the current day. And 
these are not people who have to go four or five levels up in 
their perspective organizations to get an answer to a question. 
These are people who can say ``Yes'' or ``No,'' right then, on 
the spot, with a fair level of confidence.
    So I feel that, more than anything else, has helped us, I 
think, be a little bit ahead in this process of dealing with 
the aftermath of this event.
    Mr. Wittman. Great. I think that is an important point, 
that flattened hierarchy where you, as you said, where somebody 
can make a decision now, there doesn't need to be another step 
or another delay in that decisionmaking.
    Let me ask this. As you look at the idea of contingency 
planning, obviously you have laid out about how you make 
decisions from day to day in addressing the threats from the 
oil. How do you take that next step and then look at the 
effects on the economy from that? And I speak specifically of 
the seafood industry there and what the effects are going to be 
there. And as you know that is many fold, not just on the areas 
that have to be closed for shell fishing, but also the effects 
on the processors, on the harvesters, and in the secondary 
effects, their markets that they sell to, and the effects, you 
know, extend all the way up to places like Virginia who our 
processors buy seafood from Mississippi and now those markets 
are interrupted. So the economic effects shutter throughout the 
United States.
    Can you give me a little more information about how 
Mississippi looks at that and what you do as far as contingency 
planning both on the effect on the industry there, and then how 
you try to counteract that to make sure people are aware of not 
only the safety of the seafood but how processors and 
harvesters can be prepared for that?
    Dr. Walker. Well, let me say first, Congressman, that if 
you walk down the beaches of Mississippi now from the Louisiana 
line to the Alabama line, you would see beaches that look today 
just like they looked two years ago. And if you got in a boat 
and went out to our barrier islands, you would see islands that 
look just like they did five years ago. Some of them have small 
amounts of tar balls on there but, other than that, the impact 
to Mississippi has been minimal so far.
    If you watch the national media, however, you would be 
convinced that the Mississippi beaches are ankle-deep in oil, 
and the effect of that has been disastrous, not only to our 
state, but also the states that surround us--all of the states 
in the Gulf. You have heard all of their Governors singing that 
same song, including ours. And what that has done is keep the 
tourists from coming to Mississippi. The charter boats don't 
have charters anymore. The restaurant trade is down, product is 
down and more expensive, so the economic damage to Mississippi 
had been great.
    What we have done to try to counter that is we have joined 
with the Department of Environmental Quality and the 
Mississippi Health Department to collect samples, to analyze 
those samples, to provide the results of those analyses to the 
public and show them that seafood in Mississippi is safe to 
eat, that Mississippi is still open. We would like for you to 
come down and visit.
    We are developing a--we should have completed development 
of a poster now that restaurants, seafood houses can place in 
their windows saying that Department of Marine Resources, 
Department of Environmental Quality and the Health Department 
of the State of Mississippi have together declared that 
Mississippi seafood is safe to eat.
    Mr. Wittman. Thank you, Dr. Walker. I yield back my time, 
Madam Chair.
    Ms. Bordallo. I thank the gentleman, and how I would like 
to recognize the gentlelady from the Virgin Islands, Ms. 
Christensen.
    Mrs. Christensen. Thank you, Madam Chair, and thank you for 
the series of hearings that you have been holding on the oil 
spill and its impact on the natural resources of the Gulf area, 
and thank you to the witnesses for being here and for your 
testimony and recommendations that you have made.
    I understand that there have been a series of exercises 
centered around a major spill in the Gulf as a subject of the 
exercise over the last eight or so years, the last one perhaps 
being a month or so before April.
    Dr. Walker and Mr. Barton, do you have any knowledge of 
that exercise? Was the alliance a participant in any way or any 
of the state or local officials participating in an exercise in 
the Gulf around March of this year?
    Mr. Barton. No.
    Dr. Walker. I will add to that just a bit to say that 
scientists through the Gulf of Mexico Alliance process are in 
the Gulf all the time. It just so happened by happenstance that 
one of the scientific vessels that was supported by this 
particular crew who was supported by NOAA, I believe, was 
actually out there doing normal operations when the explosion 
and the resulting fire occurred, so they were on scene, they 
were able to capture data that would not have been available, 
had they not been out there doing routine science. So that goes 
on relatively commonly in the northern Gulf of Mexico, and the 
State of Mississippi and the Gulf of Mexico Alliance is 
intimately involved in those activities. Thank you.
    Mrs. Christensen. Thank you. Dr. Takahashi-Kelso, one of 
the challenges of preparing any--I think you speak to this 
somewhat in your testimony--preparing better managing and 
especially preventing these kinds of incidences, that the 
responsibilities are siloed in different agencies.
    Can they be better coordinated, do you think, through 
something like a fusion center where each agency has someone 
there all the time, or do we need, as some people are 
suggesting, a single entity, a new agency to oversee the oil 
drilling, regulating, managing, preventing?
    Dr. Takahashi-Kelso. Thank you; a very important question, 
I think.
    My view is that the response and the agency coordination 
and communication can be accomplished in the existing incident 
command structure, but I would begin that process far back. 
That is, when Kristen Fletcher talked about the importance of 
Coastal Zone Management Act, and building in a state role very 
early in decisions about what kinds of activities are going to 
take place and under what conditions, that is very important.
    When a Federal agency like the Minerals Management Service 
has authority to make decisions about moving forward with 
activities like oil and gas development, it is crucial to have 
the agencies manage other parts of the ecosystems, activities, 
and resources which people make use of--fishing, tourism, other 
kinds of important economic issues--and that those be built in 
early and taken quite seriously.
    We just have not done that very well at all. We have 
segmented the decisions so that the units of analysis are so 
small that they are meaningless, with respect to any serious 
worst-case scenario. Even in the case of decisions about oil 
and gas leasing, the Minerals Management Service has simply 
written them off as insignificant risks and have not analyzed 
them at all.
    So, I think your point is a very important one, and we need 
to build in those levels of coordination and take seriously the 
science, the local knowledge, the inputs from states right at 
the beginning when the decisions about the activities are made, 
and then when the decisions about spill response preparedness.
    There is not currently a provision in the Coastal Zone 
Management Act that expressly recognizes the roles of states in 
the contingency planning process. Section 307 consistency 
determinations to recognize the role for the state in making 
recommendations about consistency determinations with respect 
to things like oil and gas leasing and facilities, but not 
about contingency planning. I think that is an area that could 
be strengthened and would help address the point that you 
raise.
    Mrs. Christensen. I guess my time is up. Thank you. Thank 
you for your answers.
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands. I have a few more questions. Dr. Takahashi-Kelso, I 
have a couple for you.
    In your testimony, you mentioned the states' role in NRDA 
process. How does the NRDA process intersect with the response 
and the clean-up effort, and what are the key elements to 
ensure long-term restoration and recovery?
    Dr. Takahashi-Kelso. Thank you, Madam Chair.
    The NRDA process is the Natural Resources Damage 
Assessment, and that is a process required by Federal law that 
includes not only the Federal agencies that have natural 
resource management authority primarily in the Department of 
the Interior and the Department of Commerce, NOAA, but also 
state agencies that have similar responsibilities in their 
areas of jurisdiction.
    The Natural Resources Damage Assessment is crucial for two 
things: First, it is the basis for an important part of the 
liability that the spiller ultimately will bear, and the reason 
for that, of course, is that resources, as well as the people 
who depend upon them, have been hurt. When Mr. Wittman was 
asking earlier about impacts on the seafood industry and the 
supply chain there, he raised, I think, an important piece of 
what the Natural Resources Damage Assessment actually 
addresses, and under Federal law those impacts, including lost 
profits, are properly part of the liability assessment. So, the 
Natural Resources Damage Assessment does that as one piece of 
its important mission.
    The second piece, equally important and fundamental to the 
long-term recovery from a spill, is that the science and the 
gathering of information from other sources, not just 
scientists, lays the groundwork for restoration, and the 
restoration steps need to go on for years.
    So the way I would lay it out, Madam Chair, is the 
emergency response happens right away, and it is ongoing, at 
least it is ongoing right now and will be for some time. In the 
Exxon Valdez case, it took three years. Overlapping with that, 
and essentially beginning immediately, there needs to be the 
gathering of the science, the initiating of baseline work, the 
start of longer term science that will not only help us 
understand the impacts, but also lay the groundwork for 
restoration. Then, overlapping with the Natural Resources 
Damage Assessment, the restoration steps will begin before all 
of that Natural Resources Damage Assessment work is completed. 
Basically, running throughout, there should be a monitoring 
element that continues well beyond the restoration phase as 
well, to see how effective we have been.
    Ms. Bordallo. Along the same lines, you testified that few 
states have the staffing and the technical support to sustain 
the level of engagement necessary to respond to the worst-case 
scenarios, but that we must improve our ability to do so. Who 
should be responsible for the cost of pre-training personnel 
and prepositioning infrastructure to respond to future oil 
spills?
    Dr. Takahashi-Kelso. The costs of preparing for response in 
particular areas should largely be borne by the industry that 
is undertaking the activities that contain the risk, and I 
would be happy to say more about that.
    Clearly, in some areas there are multiple individual 
businesses at work or corporations at work, but often the kind 
of activity that is being undertaken, the source of the risk, 
is in an industry sector and they should be responsible largely 
for footing the bill for the preparations necessary to make 
sure that safety is in place.
    The Federal Government and the state governments, of 
course, are appropriately paying the costs of their own agency 
staff and the capacity to be involved effectively at the agency 
level, but with respect to these particular plans and the 
preparedness to be really effective in worst-case scenarios, 
that cost should be borne by the industry.
    Ms. Bordallo. So that is very clear then in your mind, and 
so I guess we are on the right track here.
    Dr. Takahashi-Kelso. Yes.
    Ms. Bordallo. And although the Federal agencies are 
assisting, we are being reimbursed by the industry.
    Dr. Takahashi-Kelso. Exactly right. I would say that with 
something like the Natural Resources Damage Assessment, it is 
important for BP in this case to pay those costs up front, and 
the reason is that otherwise the Federal and state agencies and 
the independent scientists or university scientists who work 
with them will simply not have the resources necessarily to do 
what needs to be done at the beginning of that process. It is 
not sufficient to take resources from your existing budget 
because you just don't have enough to do that, even if it is 
reimbursed later, so there is kind of a front-loading issue 
that ought to be undertaken there.
    There are also some clear examples that I would be happy to 
identify for the Committee----
    Ms. Bordallo. Very good.
    Dr. Takahashi-Kelso.--in which both Federal and state funds 
that came from industry serve as a pool in order to support 
planning and preparation for potential spill response.
    Ms. Bordallo. Good, if you would provide us with that we 
would be grateful.
    Ms. Fletcher, would your organization be supportive of 
grants to states, through the Coastal Zone Management Act, to 
increase planning for oil spill response?
    Ms. Fletcher. Yes, Chairwoman, absolutely. The Coastal Zone 
Management Act is actually a perfect statute for--it is already 
set up for grants to states. It has been effectively managed. 
CZMA will celebrate 40 years in 2012. Actually, in New 
Hampshire, coastal zone program funds initially sponsored some 
oil spill response activities. That led to the creation of the 
cooperative, the agency/industry cooperative that I mentioned 
earlier.
    Ms. Bordallo. Yes.
    Ms. Fletcher. So, again, that granting of capacity and 
authority is already there, and I think the CZMA is a good 
place to make that connection between what is going on with the 
oil spill response as well as coastal management authority.
    Ms. Bordallo. Thank you, and I have one follow up. Please 
tell us about the Coastal Impact Assistance Program. Is the 
program effectively managed by the Minerals Management Service, 
and if not, what solutions does CSO propose to help the states 
implement the program?
    Ms. Fletcher. Well, the CIAP program is quite a valuable 
resource for coastal states. It provides funding to support 
activities that address the impacts of energy production within 
coastal and marine areas. Since it was established in the 
Energy Policy Act of 2005, $250 million in funding was intended 
to be distributed to the energy-producing coastal states for 
each fiscal year from 2007 to 2011. Unfortunately, to date, MMS 
has distributed less than 20 percent of that funding due to a 
complex in changing grants process.
    So, we would recommend that there be some clear language 
about spending those dollars; making sure that congressional 
intent is carried through, and getting those dollars in the 
hands of the states where that work can be done.
    Ms. Bordallo. Excellent. Thank you. And now I would like to 
recognize the Ranking Member Mr. Cassidy.
    Mr. Cassidy. Another name I am going to have a difficult 
time with although I shouldn't. Mr. Menashes?
    Mr. Menashes. That is right.
    Mr. Cassidy. Man, I was just like so into what you were 
saying, I felt like I couldn't find a question because I am 
totally in agreement. It has been part of my frustration, for 
example, at LSU School of Fireman Training who have all that 
HAZMAT training, but initially there was no ability to--the 
people didn't have HAZMAT training. I am thinking, 80 miles up 
the river, you have all these guys who do nothing but all day 
teach people how to do HAZMAT, and I kind of gather from--just 
as I review your testimony, it is just like having local 
resources present on an as-needed basis, knowing that the folks 
who are locally engaged are, if you will, most prepared. So 
first let me just thank you for that testimony, and hopefully 
you will be appointed as the next director of something or 
other.
    Something you said is a little different from what Dr. 
Walker said, so I just want the two of you to kind of have a 
knife fight. He mentioned, I think, very plausibly that the use 
of dispersants will break up the oil. I have heard this from 
other experts, allowing the microorganisms to destroy. You 
suggest that it will take three to four years for the estuaries 
to respond.
    Now the Ixtoc spill, I am told, within three years the Gulf 
just recovered. Now granted Ixtoc was not marshland as it is in 
Louisiana. I gather marshlands and estuaries are more 
vulnerable. Nonetheless, we have two different kinds of 
scenarios on how this plays out. So could I ask you both to 
comment upon your prognosis of how these estuaries and how the 
Gulf will heal? This is not so much about your testimony 
because I am in total agreement with it--I am going to ask my 
staff to find something, some legislation we can come up with.
    Mr. Menashes. I probably should defer to Dr. Walker's 
expertise on how the estuaries will heal, but I think what I 
can say is that, with marshes and mangroves in particular, the 
risks to those resources are extremely high. So, our efforts at 
this point need to be focused on moving oil away from those 
resources and toward areas where it is going to be easier to 
clean, and that is what is happening.
    The Coast Guard is working with scientists and working with 
natural resource managers in the Gulf to do exactly that, and 
that is where we need to be focused right now.
    For the long term restoration is obviously going to take 
quite some time. For our program, for the Research Reserve 
System I think what is important for us----
    Mr. Cassidy. Why do you say--I am going to challenge you a 
little bit.
    Mr. Menashes. Sure.
    Mr. Cassidy. Because someone came from NOAA, an acting 
director of some sort, and he said he was cautiously optimistic 
that recovery will take place sooner as opposed to later 
because, again, the hope that the microorganisms would 
disperse, it would be weathered. Even the folks from 
Mississippi have told us that it was washing up as tar balls, 
which are easily removed. So continue.
    Mr. Menashes. Well, I think the risks for clean up in 
marshes is that because of the fragility as we are in the 
marshes themselves and working on the marsh restoration, we 
have the impacts not only from the oil itself but from the 
restoration recovery activities as well.
    Mr. Cassidy. So the folks at LSU who have been studying 
this forever say the restoration could do more damage than the 
spill itself, and I guess that is why I continue to come back 
to should there be this huge--I don't want to say they are 
fatalistic, but they are denialistic, but rather they just are, 
like, it may be benign neglect is the better policy because our 
efforts may be more destructive than the original oil.
    Mr. Menashes. I cannot comment on whether they will be more 
destructive or not. What I can say is we need to study it 
further, and that is what the Research Reserves are there for. 
I think to work with Dr. Walker's department or folks from 
NGO's like the Ocean Conservancy and our Research Reserves and 
state and Federal partners are going to be able to address some 
of these questions in the long term. We are going to be able to 
take some of the information----
    Mr. Cassidy. Let me interrupt you----
    Mr. Menashes. Sure.
    Mr. Cassidy.--because I am on my yellow light, and Dr. 
Walker, any comments on what we have been speaking of?
    Dr. Walker. Sure. Matt mentioned the reserve system in 
Mississippi, and that reserve system is almost completely very 
vulnerable pristine marsh areas. After Katrina, that area had 
anything from houses to automobiles to whatever else washed up 
in it, and we got the bulk of the material out of there, but 
some of the biodegradable material that was in there, we made 
the decision to leave it there and it was a good decision. That 
stuff biologically degraded and the marshes came back in that 
system in the next growing cycle, and after two growing cycles 
you really couldn't tell that there ever had been an impact.
    Similar to this oil spill, there was a rig that leaked, an 
on-land rig that leaked a lot of oil into marsh areas in 
Louisiana. Louisiana chose to burn those marshes, and those 
marshes came back the very next year. So critical wetland 
marshes are very resilient places.
    Mr. Cassidy. So what I am also hearing from you, in the 
spirit of this testimony, is that the local experience and 
expertise is irreplaceable in understanding how to manage 
damaged resources in that area.
    Mr. Menashes. Absolutely. You know, we had proposals to 
purchase large equipment to come in and dig up marsh that had 
oil in it, and you know, there are a lot of different ways to 
get oil out of places, but most of the time if this is 
weathered oil, and I want to say something about dispersing in 
just a minute, but if it is in fact weathered oil oftentimes it 
is better to leave it where it is and let the natural 
microflora take control of it.
    With regard to dispersants, I would like to think of 
dispersants in terms of a bar of soap that is floating in the 
bathtub. If the bar of soap is intact, it is going to go away 
but it is going to take a long time. But if you could break 
that bar of soap into thousands of small pieces, it will go 
away a lot quicker, and that is what dispersants are designed 
to do, and that is what they are doing in this spill. The 
dispersants that are injected subsea at the source of the leak 
are breaking that oil into literally thousands of very small 
pieces of oil surrounded by water. In that water is contained 
natural microorganisms that are there because the Gulf floor 
naturally seeps something like 250,000 barrels of oil a year. 
Those organisms are capable of----
    Mr. Cassidy. Now let me interrupt you, I am allowed to ask 
one more question. Are the bacteria--now this has intrigued me. 
When we are talking about 5,000 feet below sea level at 40 
degrees Fahrenheit and great pressures, do the bacteria exist 
there, and if they do not, how do they enter the water column? 
Bacteria just don't appear. Are they just so diffuse throughout 
the Gulf of Mexico that when hydrocarbon floats by, despite 
entropy, they are going to nonetheless coincide?
    Mr. Menashes. Well, first, not only microorganisms, but an 
awful lot of sealife, is at the seafloor, and they are active. 
They are different kinds of creatures as you can imagine. But 
the bacteria that I am talking about are present at the 
seafloor, and they are only present there because of the oil 
seeps. They are there because food is there for them. They have 
adapted to be able to utilize this crude material as a food 
source. So they have the enzymes and the other materials that 
they need to degrade this material. So what you want to do is 
provide them as much surface area as they can to get at this 
oil, so that is what dispersants do.
    There has been a lot of concern about dispersants 
themselves and where they are. From what I can tell from the 
report that NOAA released yesterday, the area of dispersed oil 
is pretty much all in the area of the spill, and the 
dispersants are working as they should to break down the oil so 
it can degrade faster.
    The concentration of oily material in that plume below the 
surface of the water is somewhere in the one to two part per 
million level, which is relatively low.
    Mr. Cassidy. OK, thank you very much for illuminating. I 
yield back.
    Ms. Bordallo. I thank the gentleman. I would like now to 
recognize the gentlelady from California, Mrs. Capps.
    Ms. Capps. Thank you again, Madam Chair.
    I want to continue Mr. Cassidy's line of questioning and 
pick up on something that you said, Ms. Fletcher, and all of 
you seem to have supported, but I would like to get it on the 
record. More local input, the question is this--and I will go 
down the row--you can answer ``Yes'' or ``No.''
    Do each of you think providing a local public forum for the 
discussion of deficiencies found in inspections and recommended 
solutions as well as preparing oil spill response is a good 
idea? So Dr. Walker, I will start with you.
    Dr. Walker. Yes, absolutely.
    Ms. Capps. Good. It was your idea so I assume you would 
agree.
    Ms. Fletcher. Brilliant.
    Ms. Capps. Brilliant. Yes.
    Ms. Fletcher. And I do think that there is room for 
creativity in terms of having a local forum, but also some 
other mechanisms for the local information to get into the 
system.
    Mr. Barton. I certainly agree with that, and that was part 
of my testimony. I would say that Dr. Walker and I actually 
attended an open-house-type forum for local input just so 
people could come, ask questions, and participate in the 
process, put their ideas on the table, just this past week.
    Ms. Capps. Yes.
    Mr. Menashes. I think if there is anything we have learned 
from having research reserves in local communities, it is that 
local people care and provide excellent information. I think 
our research reserves have been helping out with sea grant 
institutions in the Gulf and putting on some of those public 
forums, so yes, we would support that as well.
    Dr. Takahashi-Kelso. And I agree. It is absolutely 
essential. I would suggest that there is an appropriate role 
both for the Federal Government and for state----
    Ms. Capps. Yes.
    Dr. Takahashi-Kelso.--and local government, and that you 
need both of them operating together.
    Ms. Capps. And so hopefully there will be some Federal 
representation at one of these local public forums, and I bring 
this up a little bit tongue-in-cheek because, as some of you 
know, I represent Santa Barbara where we had a big spill in 
1969, and for years our local community has been sort of 
chomping at the bit to have a say because, as you just said, 
Doctor, they care so much about their local community and what 
happens to it, so thank you, all of you.
    Dr. Menashes, I agree that this is it--I wanted to get to 
you in the last round, but this has to do with the baseline 
data which my researchers at UC-Santa Barbara tell me is so 
critical. The collection of baseline data is critical to 
preparing damage assessments. That is a given. But what other 
benefits could we expect to see with better baseline data 
collection?
    And I am just thinking of this. We have such technology now 
that we did not have before. I have a company in my district 
that it is mainly geared--that do underwater observing, and it 
kind of is a natural for our defense departments, and so that 
is where they have gone, and they are ready to have these be 
deployed in our coastal areas as well so that we would have in 
place the structure for plugging something in so that you could 
start this observing and you could collect this baseline data, 
Mr. Menashes.
    Mr. Menashes. Well, I think it is important to recognize 
the difference between using the baseline data for the Natural 
Resources Damage Protection process, which is currently going 
on, and the long-term recovery and restoration efforts. I think 
it is wise to look at the NRDA process and baseline data as 
somewhat having long-term baseline data as part of the NRDA 
process could be valuable, but it is more important to get 
information very quickly before the spill hits the land.
    Ms. Capps. Right.
    Mr. Menashes. We have time series that are relatively 
recent.
    Ms. Capps. But it could start prior to that if you have----
    Mr. Menashes. It could.
    Ms. Capps.--invasive drilling or some other activity in the 
area.
    Mr. Menashes. And I think that is important, particularly 
when it comes to looking at efficiencies for use of Federal 
dollars. Our systemwide monitoring program, which has been in 
place for about 15 years in the reserve system and is part of 
the Integrated Ocean Observing System. If we were sampling for 
hydrocarbons over the past 15 years, we could use that 
information to show long-term trends in the Gulf or along any 
of the coasts.
    We don't have the resources to do hydrocarbon testing, let 
alone some of the other testing and monitoring that we would 
like to be doing in the long term; for instance, biological 
monitoring or changes----
    Ms. Capps. Maybe that is something we should look at. I 
want to get to one more topic with your indulgence, Madam 
Chair.
    California has been a leader for the rest of the Nation, in 
many respects, in the development of training and use of oiled 
wildlife care volunteers during an oil spill response. Oil 
spill birds have been the image that has come out of the Gulf 
that has touched, I think, people more dramatically than 
anything else, and if you have oil offshore, you have 
situations that occur from time to time. So oiled bird response 
is something that the volunteers have cared very much about in 
our area.
    California has also partnered with the National Marine 
Sanctuaries to create a beach monitoring network that can be 
activated in the event of an oil spill, and even in pre-spill 
planning, and we have these sanctuaries now in very many of our 
protected areas everywhere we have oceans.
    My question, and I will put this to Mr. Menashes and Dr. 
Kelso, but anyone can respond, begging the time. Do you have 
any recommendations for the Subcommittee to better utilize, and 
some language we might want to promote in terms of some 
legislation, to better utilize volunteers' expertise for oiled 
wildlife care and recovery?
    Mr. Menashes. I will answer real quickly that it is 
important in dealing with the oiled wildlife that we--as we 
were talking about with Mr. Cassidy--that hazardous materials 
training is in place for these folks. So from a legislative 
standpoint----
    Ms. Capps. Yes.
    Mr. Menashes.--the first thing we need to make sure is----
    Ms. Capps. That they are safe.
    Mr. Menashes. That they are safe, and I will turn you over 
to Dr. Kelso for anything additional.
    Dr. Takahashi-Kelso. I will be quick. California has been a 
leader and the center at the University of California--Davis, 
is really a superb source of expertise.
    I think the keys are to have a framework in which 
volunteers can be useful, do some pre-training so that they are 
a trained corps that is ready to go; make sure that they have 
enough equipment to be effective; and also to build a network 
among the different wildlife facilities, say along the West 
Coast, not just in California. And I think that, regionally, 
those wildlife facilities and experts can be more effective if, 
prior to any spill, those relationships are established and the 
depots of equipment and training are already in place.
    Ms. Capps. Do mind if I ask Mr. Barton and Dr. Walker 
because you represent different coastal areas. Does this seem 
of value to you?
    Dr. Walker. Well, in the State of Mississippi, we have an 
Audubon Institute, we have a Wildlife Rehabilitation Institute 
and we have an Institute on Marine Mammal Studies, and it 
focuses on marine mammals and turtles. All of those places, if 
they had funding, could train this workforce of volunteers that 
Dennis was talking about and that you are referring to. So I 
think it is an outstanding idea. We simply need to get 
additional support to these folks so that they can provide this 
critical training.
    Mr. Barton. And there is a big part of our county set aside 
for marine protection. We have the Audubon presence there, and 
we have the National Grand Bay Estuarine Reserve there. We have 
the Sandia National Laboratory, and the U.S. Fish and Wildlife 
Service is there. So, we have a lot of expertise in the county 
that would certainly help with this, and it would certainly be 
something we would like to participate in. It would be very 
important, and I think we have a lot of local expertise in 
those areas.
    Ms. Capps. I am over my time. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentlelady, and now I would like 
to recognize Mr. Wittman, the gentleman from Virginia.
    Mr. Wittman. Thank you, Madam Chairwoman.
    I want to go to Mr. Barton and get your perspective. I 
thought it was interesting about your ideas about how this 
affects localities, and having served on the Board of 
Supervisors in Virginia for a number of years it is near and 
dear to my heart about how localities have to deal with this, 
and obviously this is not just an issue for you now, but down 
the road.
    You talk about there being not as much capacity in your 
local coastal facilities to really be able to deal with this 
particular spill. I would be interested to know how many people 
are actually at those facilities and, if you were to look into 
the future and ask what kind of capacity do we need in those 
facilities for a spill such as we are experiencing now, what do 
you think the future need would be to be properly prepared?
    Then, I like your idea of this regionalism, these area 
commands which are really what states are looking at, to make 
sure resources are being leveraged in an immediate way. 
Obviously, one county may not have it by itself but you could 
leverage those regionally. So tell me what exists now. What do 
you think a locality needs in the future, and how do you see 
that being leveraged as far as these area commands are doing 
regionally?
    Mr. Barton. OK. Well, let me try to do that in two answers. 
First, responding to the facilities themselves. As I said in 
the written testimony and in my oral comments, most of the 
facilities along the entire Gulf Coast--Louisiana, Alabama, 
Mississippi, Florida, probably in Texas also--most of these 
facilities were built a number of years ago when the responses 
were just different. We had a different response model. We 
didn't have near the people, and really, as I said earlier, 
Katrina taught us a lot of lessons, but one of the things that 
came in with Katrina was the current NIMS model, and that was 
our first really broad experience with that, and it actually 
was a pretty good model. I mean, it brought a lot of the right 
people to the table, but it also brought a larger presence, and 
it required that there be a Federal presence, that there be a 
state presence, that there be a local presence, and then you 
had these incident command teams and so forth.
    So, when you got everybody together, you had all the right 
people. We just didn't have any place big enough to put them, 
and it was a large number of people over a fairly long period 
of time, and so immediately after that storm, we started 
looking at the future and said, if this is the future type of 
response, then what do we need in place to be able to manage 
those emergencies successfully locally? I mean, what do we need 
in place?
    Well, we went out and we looked at some other facilities 
here and there, just a few, not very many that really are 
designed with this process in mind. Actually the one in 
Escambia County, Florida, is a real good one. It's just been 
fairly recently built. And so we started looking at these 
footprints and the footprint, I think, can be easily defined to 
do everything you need to be able to do and do it locally, but 
the problem you get into and the problem we are certainly in, 
in most of the coastal regions that I know of, you know, it 
might cost as little as maybe a couple hundred thousand dollars 
up to maybe a million dollars to do maybe some upgrades or 
something, but if you had to build a new facility, you might 
spend $6-8 million.
    Well, that is a pretty tough hill to climb for a lot of 
local communities, and especially communities that, like where 
we are, we are still within five years of the storm, I mean, we 
are still rebuilding, you know, and we are not at a point right 
now where we could borrow that kind of money to build that kind 
of building. We know it is a priority, and it is on our list of 
things to do, and one day hopefully the county will do that.
    But then the second question, if you don't mind repeating 
the second question.
    Mr. Wittman. Sure. The second question is sort of extended 
from what you are talking about, about those command centers. 
How do you----
    Mr. Barton. Oh, the command centers.
    Mr. Wittman. Area commands.
    Mr. Barton. What I was going to say, and I will do this as 
quickly as I can, and I will go back to the Katrina model in 
that sense. In that particular time, we had very similar to 
where we are now. We had damage in Alabama, we had damage in 
Mississippi, we had damage in Louisiana. But the way the area 
commands were set up, they were really more set up by state, 
and in that particular case it was under the Stafford Act, 
which is slightly different, but the states kind of coordinated 
the local communities and then it was up to a unified type 
command structure.
    And where that worked well, and without going into a lot of 
details, but where you have got such a regional approach to 
something like this, and if you have sat on a Board of 
Supervisors you will know where I am headed here, many times, 
you know, what I can do in Mississippi, or maybe turn that 
around. Maybe something they can do in Mobile, Alabama, because 
they have the statutory authority to do it, in Mississippi, I 
may not have that statutory authority.
    So, if that coordination is done through a state area 
command, and if it is Dr. Bill Walker, he understands the 
limitations that we may have that maybe somebody in Alabama 
doesn't have or somebody in Florida doesn't have, and maybe 
there are a lot of similarities, but when you cross the state 
lines, there are always differences, and so in trying to pull 
that area command back into a state level, in our opinion, it 
would just make it work a lot better, and the relationships are 
much closer at the state levels than they are across a regional 
basis.
    Mr. Wittman. If I can ask just one additional question.
    Ms. Bordallo. All right.
    Mr. Wittman. I just want to, Mr. Barton, get your 
perspective. Obviously we are dealing with the here and now. 
How do we respond to this? How do we make sure we deal with the 
impacts of this? Give me your perspective on how you think we 
best deal with it, and you have been through it with Katrina. 
How do we best deal with the economic impacts of this event, 
down the road, to make sure that those economies can rebound 
from this?
    Mr. Barton. That is a much more difficult question to 
answer, and you know, I will be honest with you. We have kind 
of worked our way through this trying to visualize what the 
impacts are going to be. I mean, the impact could be for many, 
many, many years, and property values go down, tax revenue goes 
down, that is at the governmental level, and then the services 
that you are trying to provide. Obviously, in this particular 
case, local governments would not have the luxury, I don't 
think, of raising taxes because you are raising taxes on people 
whose economy has gone south. So, those things are going to be 
problematic long term.
    But then you get into the small businesses, and I will give 
you a perfect example. I had someone in my office earlier this 
week--a boat business--primarily saltwater boats. He is going 
out of business. Eleven employees who have now lost their jobs.
    So how do you frame something to make the owner of the 
business whole, the eleven employees who no longer have a job, 
and that business may never come back?
    So, it kind of goes across a very broad spectrum of all of 
our businesses are being hit. I think someone said awhile about 
the seafood industry and the restaurants and those kinds of 
things. Well, that is something you can quantify. I mean, you 
can go back and say, well, how well did you do last year, how 
well are you doing this year, and there is a delta, but it is 
not always easy to measure what that is going to be or how long 
the impact is going to last. But there is no question that it 
is going to be a significant impact, and I think it is going to 
impact us for quite sometime.
    Ms. Bordallo. I thank the gentleman. We do have votes in a 
few minutes, so I would like to thank the panel for their 
participation in the hearing this morning, and members of the 
Subcommittee may have some additional questions for our 
witness, and we will ask you to respond to these in writing. In 
addition, the hearing record will be held open for 10 days for 
anyone who would like to submit additional information for the 
record.
    If there is no further business before the Subcommittee, 
the Chairwoman thanks the members for their participation here 
this morning, and the Subcommittee now stands adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

                 Supplemental Written Statement of the 
            National Estuarine Research Reserve Association

    Thank you Chairwoman Bordallo and Members of the Subcommittee for 
the opportunity to provide this additional written statement on behalf 
of the state agencies and academic institutions that operate the 
nation's National Estuarine Research Reserves (reserves) about efforts 
to improve standards for preparedness for offshore energy development.
    As we noted in the written testimony we submitted earlier for this 
hearing, the National Estuarine Research Reserve System (reserve 
system) was authorized in 1972 under the Coastal Zone Management Act 
(CZMA). The program is a unique federal-state partnership which brings 
the National Oceanic and Atmospheric Administration (NOAA) together 
with state agencies and universities to protect lands and waters for 
long-term research and education purposes. NOAA and reserve staffers 
collaborate to provide education, training, and stewardship programs 
that ensure the protection of these wonderful places while advancing 
our collective understanding of how estuaries function. As part of the 
CZMA, the reserves also play a strong role in assisting coastal 
managers in reaching out to the public on critical coastal issues.
    We all know that the impact in the Gulf of Mexico is not just to 
natural resources, but also to the people of the region. We want to 
expand on our earlier comments by drawing some attention to the need to 
better prepare to respond to--and support--citizens in the local 
communities affected by oil spills.
    Planners need to focus more effort on getting accurate, locally 
specific information to communities and businesses about the true 
impacts to natural resources, how commercial and recreational 
activities are impacted, and what limitations communities and 
businesses may face and for how long. As an example, Gulf coast reserve 
staff hear repeatedly from residents in their communities that people 
want to understand the characteristics of spilled oil and chemical 
dispersants, and want to know what can be expected if people come into 
contact with either. Because of the number of questions we are 
receiving on this topic, we believe the public may not be getting 
information in the most effective manner. Agencies can always do a 
better job of communicating with the public. By addressing public 
outreach needs in advance, contingency planners can ensure well-
established networks like the reserve system can be used to quickly 
reach out to the public to relay critical information in times of 
crisis. With our long tenure in many coastal communities, research 
reserve staff members are trusted experts that are counted on to 
provide timely and accurate information.
    We also would like to encourage the committee to explore the 
necessary social science research and related public outreach that 
should be included in spill contingency plans. Contingency plans should 
include ways to immediately begin the research and outreach necessary 
to understand the impacts of a spill on people's lives and livelihood. 
For instance, with the prevalence of fishing and tourism related 
businesses along America's coasts, a common set of social science 
research and public outreach programs focused on these areas could be 
developed. Universities and other research institutions could be pre-
positioned to begin studies immediately after a spill to determine the 
economic impacts to tourism or fishing businesses for example. Other 
efforts could focus on ensuring that outreach materials are presented 
to diverse communities with appropriate tools and language.
    We believe there are many opportunities to strengthen planning to 
address the social impacts of spills and other disasters. We appreciate 
the opportunity to provide this supplemental statement to our original 
testimony as a way to draw attention to some of these opportunities.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
